No. 21In the

Supreme Court of the United States
JOSEPH SCHNEIDER,
Petitioner,
v.
THE PEOPLE OF THE STATE OF NEW YORK,
Respondent.

On Petition for a Writ of Certiorari
Court of A ppeals of New York

to the

PETITION FOR A WRIT OF CERTIORARI

Stephen N. Preziosi, Esq.
Counsel of Record
48 Wall Street, 11th Floor
New York, New York 10005
(212) 960-8267
info@appealslawfirm.com
Counsel for Petitioner

306550

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
Title III of the Omnibus Crime Control and
Safe Streets Act of 1968 prohibits wiretapping except
as provided in the enabling statute, 18 U.S.C. §2516.
Section 2516(1) authorizes federal judges to issue
eavesdropping warrants, and section 2516(2) is the
enabling statute that authorizes state judges to issue
wiretap orders. Under Title III states are free to
adopt wiretapping procedures either more restrictive
than federal law or prohibit wiretapping completely.
Joseph Schneider, a California resident, has
never set foot in New York, never made calls to or
received calls from New York, and never committed
any crimes in New York. A New York Judge issued
wiretap orders on his mobile phone in California, and
the signal was re-directed to a listening post in
Brooklyn
where
police
overheard
the
communications regarding his gambling operations –
none of which took place in New York.
The question presented is:
Do State Judges have authority under Title III’s
enabling statute to issue wiretap orders beyond their
state borders as here where a New York Judge

ii
ordered wiretaps on Joseph Schneider’s mobile phone
in California when all phone calls originated and
terminated outside of New York State and Joseph
Schneider committed no crimes in New York State?

iii
PARTIES TO PROCEEDING
The People of the State of New York are
represented by the Kings County District Attorney,
Mr. Eric Gonzalez.
Joseph
Schneider,
the
petitioner,
represented by Stephen N. Preziosi, Esq.

is

iv
RELATED CASES
•

People v. Joseph Schneider, 4097/2016,
Supreme Court of the State of New York,
County of Kings, Criminal Term Part 19.
Judgment dated September 15, 2017.

•

People v. Joseph Schneider, 2018-09853,
Supreme Court of the State of New York,
Appellate Division, Second Department.
Judgment dated Oct. 16, 2019.

•

People v. Joseph Schneider, No. 41, New York
Court of Appeals. Judgment dated June 3,
2021.

v
TABLE OF CONTENTS
QUESTION PRESENTED ......................................... i
PARTIES TO PROCEEDING ..................................iii
RELATED CASES .................................................... iv
TABLE OF APPENDICES ..................................... viii
TABLE OF AUTHORITIES ..................................... ix
PETITION FOR WRIT OF CERTIORARI ............... 1
OPINIONS BELOW .................................................. 1
JURISDICTION......................................................... 1
STATUTORY PROVISIONS INVOLVED ................ 2
INTRODUCTION ...................................................... 3
STATEMENT OF THE CASE ................................... 8
Procedural History .......................................... 10
Motions And Decisions In The Lower Court .. 11
The Brooklyn Judge Adopts The Listening
Post Rule And Denies The Motion To
Suppress ........................................................... 13
The Plea and Sentence: Issues Preserved For
Appellate Review By Agreement Of The
District Attorney And The Lower Court ......... 15
Appeal To the Intermediate Appellate Court
.......................................................................... 16
Appeal To The New York Court of Appeals .... 17

vi
REASONS FOR GRANTING THE WRIT .............. 21
EXTRATERRITORIAL WIRETAP ORDERS BY
STATE JUDGES ARE BEYOND THE SCOPE
OF AUTHORITY PERMITTED UNDER TITLE
III AND CONSTITUTE AN INVASION OF
STATE SOVEREIGNTY AS THEY ALLOW
STATE JUDGES TO PROJECT CRIMINAL
STATUTES INTO SISTER STATES’
JURISDICTIONS ..................................................... 21
The Pressing Question Of A State Judge’s
Territorial Reach To Issue Wiretap Orders
Under Title III’s Enabling Statute Is
Squarely Presented In This Case ................... 22
The Enabling Statute’s Silence On The
Territorial Reach Of State Judges’ Wiretap
Orders Has Fomented A Patchwork Of State
Wiretap Laws .................................................. 23
The Issue Of Territorial Reach Of Wiretap
Orders Has Created A Split Of Authority In
The Federal Circuit Courts ............................. 26
Extraterritorial Wiretap Orders Are An
Invasion Of State Sovereignty ........................ 31
The Extraterritorial Application Of Criminal
Statutes Violates The Due Process Rights Of
Sister State Citizens........................................ 35
The Variation In State Laws Creates Conflict
Among The States: Different Criminal Offenses
Are Subject To Wiretap Orders ...................... 37

vii
States That Permit Wiretap Orders On
Cellphones Beyond Their Borders Run Afoul
Of Common Law Territorial Principles ......... 39
The Enabling Statutes For Federal And State
Judges Are Written Differently And Must Be
Interpreted Differently.................................... 41
The Listening Post Rule: Allowing States To
Project Their Laws Into Other Jurisdictions
And Redirect The Phone Signal Back To The
Jurisdiction Of The Issuing Judge Encourages
Forum Shopping .............................................. 45
CONCLUSION.......................................................... 48

viii
TABLE OF APPENDICES
Appendix A Opinion of the Court of Appeals of New
York, dated June 3, 2021 .................. 1a
Appendix B Opinion of the Supreme Court of the
State of New York, Appellate Division:
Second Judicial Department, dated
October 16, 2019 ............................. 55a
Appendix C Opinion of the Supreme Court of the
State of New York County of Kings:
Criminal Term Part 19, dated
September 15, 2017 ......................... 59a

ix
TABLE OF AUTHORITIES
CASES
Allgeyer v. State of La.,
165 U.S. 578 (1897) ............................................ 36
Berger v. New York,
388 U.S. 41 (1967) ........................................ 3, 4, 6
Dahda v. United States,
138 S.Ct. 1491 (2018) ................................... 23, 29
Davis v. State,
43 A.3d 1044 (Md. 2012) .................................... 25
Katz v. United States,
389 U.S. 347 (1967) .......................................... 3, 6
Kiobel v. Royal Dutch Petroleum Co.,
569 U.S. 108 (2013) ............................................ 35
Morrison v. National Australia Bank Ltd.,
561 U.S. 247 (2010) ............................................ 35
Mutual Pharmaceutical Co., Inc. v Bartlett,
570 U.S. 472 (2013) .............................................. 7
New York Life Ins. Co. v. Head,
234 U.S. 149 (1914) ............................................ 36
Nielsen v. Oregon,
212 U.S. 315 (1909) ............................................ 36

x
People v. Schneider,
176 A.D.3d 979 (2d Dept. 2019) ......................... 1
People v. Schneider,
No. 41, 2021 WL 2228796 (N.Y. June 3, 2021) .....
................................................................... 1, 33-34
State v. Ates,
86 A.3d 710 (N.J. 2014) ................................ 23, 24
State v. Brye,
935 N.W.2d 438 (Neb. 2019) .............................. 25
State v. Cain,
757 A.2d 142 (Md. 2000) .................................... 39
State v. Darroch,
287 S.E.2d 856 (N.C. 1982) ................................ 39
State v. Smith,
421 N.W.2d 315 (Minn. 1988) ............................ 39
United States v. Glover,
736 F.3d 509 (D.C. Cir. 2013) ....................... 28-29
United States v. North,
728 F.3d 429 (5th Cir. 2013) (Case No. 11-60763),
withdrawn ................................................... 27, 28
United States v. North,
735 F.3d 212 (5th Cir. 2013) .............................. 27

xi
United States v. Ramirez,
112 F.3d 849 (7th Cir. 1997) ......................... 26-27
United States v. Rodriguez,
968 F.2d 130 (2d Cir. 1992) ................... 14, 17, 24
STATUTES:
18 Pa.C.S.A. §5708(1) ............................................... 38
18 U.S.C. §§ 2510-22 (Wiretap Act) ................. passim
18 U.S.C. § 2516 ................................................ passim
18 U.S.C. §2516(1) ............................................ passim
18 U.S.C. § 2516(1)(c) ............................................... 42
18 U.S.C. 2516(1)(l)................................................... 42
18 U.S.C. § 2516(1)(m) .............................................. 43
18 U.S.C. §2516(2) ............................................ passim
18 U.S.C. § 2518 .................................................... 2, 43
18 U.S.C. §2518(3) ............................... 7, 26-28, 30, 43
18 U.S.C. §2518(10)(ii) .............................................. 28
28 U.S.C. §1257(a) ...................................................... 1

xii
725 Ill. Comp. Stat. Ann. § 5/108B-3(a) ................... 38
Alaska Stat. Ann. § 12.37.010 .................................. 38
Cal. Penal Code §629.50 et seq. ........................... 5, 12
Cal. Penal Code §629.52 ..................................... 12, 38
Cal. Penal Code §630 ................................................ 12
Del. Code Ann. Title 11, §2407(c)(3) .................... 5, 25
Haw. Rev. Stat. Ann. § 803-46 ................................. 38
Md. Code Ann., Cts. And Jud. Proc.
§10-408(c)(3) .............................................. 5, 24-25
M.G.L.A. 272 §99 ........................................................ 5
Neb. Rev. St. §86-291................................................ 38
Neb. Rev. Stat. Ann. §86-293(3) ............................... 25
N.J. Stat. Ann. §2A:156A-2(v) .............................. 5, 24
N.Y. CPL §700........................................................... 19
N.Y. CPL §700.05 ........................................................ 5
N.Y. CPL §700.05(4) ................................................. 24

xiii
N.Y. C.P.L. §700.05(8) .............................................. 38
N.Y. CPL §700.05(8)(c) ............................................. 38
N.Y. Penal Law § 105.05(1) ...................................... 10
N.Y. Penal Law § 225.10(1) ...................................... 10
N.Y. Penal Law § 225.20(1) ...................................... 10
N.Y. Penal Law § 460.20 .......................................... 10
CONSTITUTION:
Cal. Const. art. I §13 ................................................. 36
U.S. Const. art IV ..................................................... 36
U.S. Const. art VI, cl. 2 ............................................... 7
LEGISLATIVE HISTORY:
S. Rep. No. 1097, 90th Cong. (1968) .................. 4, 7, 31
OTHER AUTHORITIES:
Larry Kramer, Jurisdiction over Interstate Felony
Murder, 50 U. Chi. L. Rev. 1431 (1983) .......38-40

1
PETITION FOR A WRIT OF CERTIORARI
Joseph Schneider respectfully petitions for a
writ of certiorari to review the judgment of the New
York Court of Appeals.
OPINIONS BELOW
The New York Court of Appeals’ opinion is
reported at 2021 WL 2228796 (App. 1a). The
Appellate Division can be found at 176 A.D.3d 979 (2d
Dept. 2019) (App. 55). The lower court decision is
contained in the appendix at App. 59a.
JURISDICTION
On June 3, 2021, the New York Court of
Appeals issued a decision authorizing New York
State judges to issue eavesdropping warrants on
mobile phones beyond the borders of New York State
and beyond the scope of their authority in the
enabling statute in Title III of the Omnibus Crime
Control and Safe Streets Act of 1968. This Court has
jurisdiction under 28 U.S.C. §1257(a).

2
STATUTORY PROVISIONS INVOLVED
Title 18 U.S.C. §2516(2), the enabling statute
under Title III of The Omnibus Crime Control and
Safe Streets Act of 1968, provides:
The principal prosecuting attorney of any State,
or the principal prosecuting attorney of any
political subdivision thereof, if such attorney is
authorized by a statute of that State to make
application to a State court judge of competent
jurisdiction for an order authorizing or approving
the interception of wire, oral, or electronic
communications, may apply to such judge for,
and such judge may grant in conformity
with section 2518 of this chapter and with the
applicable State statute an order authorizing, or
approving the interception of wire, oral, or
electronic communications by investigative or
law enforcement officers having responsibility for
the investigation of the offense as to which the
application is made, when such interception may
provide or has provided evidence of the
commission of the offense of murder, kidnapping,

3
human trafficking, child sexual exploitation,
child pornography production, prostitution,
gambling, robbery, bribery, extortion, or dealing
in narcotic drugs, marihuana or other dangerous
drugs, or other crime dangerous to life, limb, or
property, and punishable by imprisonment for
more than one year, designated in any applicable
State statute authorizing such interception, or
any conspiracy to commit any of the foregoing
offenses.
INTRODUCTION
In 1968, Congress passed the Omnibus Crime
Control and Safe Streets Act. That legislation was
passed in response to the United States Supreme
Court’s decisions in Berger v. New York, 388 U.S. 41
(1967) and Katz v. United States, 389 U.S. 347 (1967).
In the Berger case, the Supreme Court struck down
New York State’s eavesdropping statute as
unconstitutional. The New York statutory scheme
was held to be too broad in its sweep; it contained no
requirement for particularity as to what crime had
been or was being committed; it did not specify the

4
place to be searched or conversations to be seized as
required by the Fourth Amendment.
A significant part of the 1968 legislation is the
provision outlawing wiretapping in general, and Title
III’s enabling statute, carving out exceptions for
federal and state judges to issue eavesdropping
orders. When Congress enacted Title III, it relied on
the broadest reach of its commerce clause powers,
imposing on the States the minimum constitutional
criteria for electronic surveillance legislation
mandated by the Berger case.
Title III has two purposes: to protect privacy of
wire and oral communications, and to create a
uniform basis for the circumstances and conditions in
the law for the authorization and interception of wire
and oral communications. S. Rep. No. 1097, 90th
Cong. at 37 (1968). Because of the very general
structure of 2516(2), the states have enacted
eavesdropping legislation with great variation and
contrary to the goal of achieving uniform
circumstances and conditions for the authorization of
intercept orders.

5
Section 2516(2) lists the de minimus
constitutional requirements imposed on state judges
for intercept orders of wire, oral, or electronic
communications. Although the enabling statute
requires that the state judge be of competent
jurisdiction and lists a series of other requirements
such as who may make wiretap applications and for
what offenses, the statute is silent on the territorial
reach of state-issued wiretap orders. State legislation
concerning territorial reach varies from those state
statutes that are completely silent on the issue (see
New York: N.Y. CPL §700.05; Massachusetts:
M.G.L.A. 272 §99; California: Cal. Penal Code
§629.50 et seq.) to those states that expressly permit
a wiretap order to go beyond the borders of the state
into other jurisdictions to wiretap mobile phones.
(See New Jersey: N.J. Stat. Ann. §2A:156A-2(v);
Maryland: Md. Code Ann., Cts. And Jud. Proc. §10408(c)(3); Delaware: Del. Code Ann. Title 11,
§2407(c)(3)) Some states require that there be some
criminal nexus to the issuing jurisdiction, some do
not.
The disharmony in state legislation gnaws at
the stated goal of the Omnibus Crime Control and

6
Safe Streets Act for uniformity and consistency in the
circumstances and conditions for wiretap orders.
Some states confine themselves to wiretapping cell
phones within state limits while others reach across
borders and across the nation into sister state
jurisdictions, even where the states’ laws conflict on
matters of offenses appropriate for wiretapping. As
the use of cell phones and other mobile devices
become more ubiquitous, the enabling statute’s
silence on territorial limitations promises to drag the
several states further from the goal of uniformity and
further from consistency in the application of wiretap
law.
The legislative intent was to harmonize, to
bring constitutional consistency to the process of
obtaining wiretaps orders and, in doing so, to protect
the privacy of wire and oral communications of
citizens. The objective was not to supersede state
regulation on eavesdropping, but to limit it. In the
new light of Berger and Katz, the enabling language
of 18 U.S.C. § 2516(2) allows states to adopt
procedures and standards more restrictive than those
imposed by the federal law, i.e. imposing greater
restrictions on the process of issuing of wiretapping

7
orders, or, if they desire, to prohibit wiretapping
altogether, but states may not be less restrictive than
federal law. S. Rep. No. 1097, 90th Cong. at 69 (1968);
in other words, the federal law provides the minimum
constitutional protections for citizens, and states,
although free to devise their eavesdropping statutes
as they see fit, may not provide less constitutional
protection for citizens. While §2516(2) is silent on
territorial boundaries for wiretap orders, it is
plainspoken in its objectives – to limit states’
authority to issue wiretap orders.
Under pre-emption principles, any State law
drawn more broadly than the federal statute runs
afoul of the Supremacy Clause (U.S. Const. art VI, cl.
2) Mutual Pharmaceutical Co., Inc. v Bartlett, 570
U.S. 472, 479-480 (2013). The legislative history of
Title III clarifies the boundaries of authority for both
federal and state judges. The Senate Report Number
1097, cited above, says that the states can adopt
legislation that is more restrictive than the federal
law, but not less restrictive. Federal judges have
limited authority to issue wiretap orders outside of
their jurisdiction under §2518(3) in the case of a
mobile interception device and that authority is

8
further limited to the listed offenses under §2516(1).
The enabling statute for state judges must, therefore,
be more restrictive on the powers of state judges to
issue wiretap orders.
When

the

state

statute

is

written

or

interpreted more broadly than the federal statute,
then it runs afoul of the Supremacy Clause. Because
several states have written their statutes providing
broader authority, and several states interpret their
statutes to provide broader authority than federal
law permits, they have run afoul of the Supremacy
Clause as their statutes provide greater authority
than Congress intended.
STATEMENT OF THE CASE
On December 3, 2015, a New York State judge
sitting in Brooklyn, New York issued an order to
wiretap the mobile phone and intercept electronic
communications of Joseph Schneider in California.
All the communications intercepted originated and
terminated outside of New York State.

9
Joseph Schneider is a California resident. He
has lived and worked in California his entire life.
Prior to his arrest in this case, he had never set foot
in New York, did not know anyone in New York, and
had no contacts with anyone in New York. The
December 3, 2015 wiretap and interception order,
and all the subsequent orders allowed the Brooklyn
District Attorney’s office and their detectives to
eavesdrop on phone conversations and electronic
communications between Joseph Schneider and
people located principally in California but also in
Arkansas, Colorado, Florida, Michigan, Nevada, New
Jersey, Hawaii, and Costa Rica – none of his
communications began in, ended in, or had any
relation to New York State.
In fact, after Joseph Schneider was arrested in
California and transported to Brooklyn, the District
Attorney stated at his arraignment “As far as
connections to New York, the People are not aware of
any Schneider connections with New York, with the
exception of the deceased Patrick Deluise…” Mr.
Deluise was, in fact, a resident of New Jersey, not
New York, and none of the calls between Deluise and
Schneider originated or terminated in New York.

10
Procedural History
In June 2016 Joseph Schneider was arrested
in California, transported to New York, indicted in
Kings County (Brooklyn), and charged with one count
of enterprise corruption under Penal Law § 460.20
(Count 1 of Indictment); seventeen counts of
promoting gambling in the first degree under Penal
Law § 225.10(1) (Counts 2-18); one count of
possession of gambling records in the first degree
under Penal Law § 225.20(1) (Count 54); and one
count of conspiracy in the fifth degree under Penal
Law § 105.05(1) (Count 57).
The indictment came after more than a
yearlong investigation conducted by the King’s
County District Attorney’s Office and their
detectives. The investigation included numerous
eavesdropping warrant applications made to a Kings
County, New York Supreme Court Judge. Extensive
eavesdropping evidence was collected, making up the
majority of the evidence in this case.

11
Motions And Decisions In The Lower Court
After Joseph Schneider’s arrest
and
arraignment, Defense counsel moved to suppress the
evidence obtained through the eavesdropping
warrants as illegally obtained. The argument for
suppression was grounded on the fact that none of the
criminal activity attributed to Mr. Schneider took
place in New York. Mr. Schneider had no
communications with anyone in New York and his
gambling websites took no bets from anyone in New
York, either directly or indirectly.
Additionally, the defendant argued that the
principles of state sovereignty and due process
prohibit the Kings County District Attorney’s Office
from eavesdropping on the private communications of
the defendant, a resident of California, in violation of
California’s privacy statute.
Because each state is free to create its own
eavesdropping statutes as the state legislatures see
fit under the federal enabling statute, California
eavesdropping laws and New York eavesdropping
laws differ. Unlike New York, California does not

12
authorize eavesdropping for gambling related
offenses and prohibits eavesdropping by out-of-state
law enforcement officials unless they work in
conjunction with California law enforcement. (See
California Penal Code §§ 629.50, 629.52, and 630)
The Kings County District Attorney never made an
application for an eavesdropping warrant to a
California judge and never worked with California
authorities before wiretapping Mr. Schneider’s cell
phone.
Most importantly, the overwhelming majority
of the phone calls monitored by the Kings County
District Attorney took place between California
residents (i.e. phone calls were from California to
California) and all the other phone calls and
electronic communications were between Mr.
Schneider in California and residents of states other
than New York. Mr. Schneider did not make or
receive any phone calls or electronic communications
to or from New York. In fact, the probable cause
contained in the application for the warrant on Mr.
Schneider’s cellphone was stated by the detective as
follows: “I am aware that SCT 19 (626-701-7266) was
in contact at least fifteen times or more during the

13
same time period with telephone numbers whose area
codes originate from States other than California,
such as, Arkansas, Colorado, Florida, Michigan,
Hawaii, and Nevada. Lastly, I am aware that SCT 19
received three incoming calls from telephone number
01150687307941 during that same period. I am
aware that this telephone number originates from
Costa Rica.”
It was never alleged that Mr. Schneider had
any contact, directly or indirectly, with the State of
New York or that he committed any crimes in New
York. Although the lower court lacked any evidence
of probable cause to believe that a crime was
committed in New York by Mr. Schneider, the court
denied the motion to suppress.
The Brooklyn Judge Adopts The Listening Post Rule
And Denies The Motion To Suppress
The lower court denied defense counsel’s
suppression motion and held that the eavesdropping
warrant was “executed” in Kings County where the
Kings County District Attorney, with the assistance
of the phone company, electronically diverted the

14
signal from the out-of-state phone calls to a listening
post in Brooklyn, New York. The lower court veiled
its reasoning with the listening post rule. It held that
because the out of State phone conversations were
electronically diverted from California to where they
were first listened to in Brooklyn, the eavesdropping
warrants were, therefore, “executed” in Brooklyn,
New York.
In support of its decision, the Brooklyn court
cited the seminal case establishing the listening post
rule, United States v. Rodriguez, 968 F.2d 130 (2d Cir.
1992). The Rodriguez case held that where phone
lines (land lines) were making calls between New
York and New Jersey, the New Jersey phones were
subject to wiretap orders from the U.S. District Court
in the Southern District of New York because the
signal was diverted back to a listening post in
Manhattan, New York, and, thus, the interception
took place within the issuing judge’s jurisdiction.
The lower court never addressed the concern
that, through the use of the phone company’s
advancements in switching technology, phone calls to
or from anywhere in the nation can be redirected and

15
listened to at a location of the NYPD’s choosing. Most
importantly, the lower court never addressed how
these technological advancements affect the
jurisdictional and geographic boundaries of a New
York State Judge’s authority to act outside the
borders of New York State.
The Plea and Sentence: Issues Preserved For
Appellate Review By Agreement Of The District
Attorney And The Lower Court
On March 6, 2018, Joseph Schneider pleaded
to count one, enterprise corruption, a class B felony;
counts two through eighteen, promoting gambling in
the first degree, a class E felony; count fifty-four,
possession of gambling records, a class E felony; and
count fifty-seven, conspiracy in the fifth degree, a
class A misdemeanor.
The District Attorney consented to allow Mr.
Schneider to remain out on bail while his appeal is
pending. All appellate courts, including the New York
Court of Appeals, have extended the stay of his
sentence and Mr. Schneider remains out of custody

16
on bail with the consent of the Kings County District
Attorney’s Office.
At sentence, defense counsel, the court, and
the District Attorney agreed that the arguments
raised in the pre-trial motions would be preserved for
appellate review. The lower court then sentenced Mr.
Schneider on count one to an indeterminate sentence
of one to three years to run concurrent to all other
counts; on counts 2 through 18 to an indeterminate
sentence of 1 to 3 years to run concurrent to all other
counts; on count 54 possession of gambling records to
an indeterminate term of 1 to 3 years to run
concurrent with all other counts; and on count 57
conspiracy in the fifth degree to a definite term of one
year in jail to run concurrent to all other counts.
Appeal To the Intermediate Appellate Court
Mr. Schneider filed an appeal to the Appellate
Division, Second Department, arguing that the lower
court acted beyond the scope of its statutory authority
when it issued eavesdropping orders to intercept
communications that took place entirely outside the
State of New York. He argued that the Omnibus

17
Crime Control and Safe Street Act of 1968 did not
confer authority on New York State judges to issue
eavesdropping orders on cell phones where the phone
calls originated and terminated outside New York
and where Mr. Schneider committed no crimes in
New York. Mr. Schneider also argued that the
eavesdropping orders violated several Constitutional
provisions such as the Privileges and Immunities
Clause, the Full Faith and Credit Clause, and the
separate sovereign’s doctrine.
The Appellate Division, Second Department
relied on the listening post rule established in United
States v. Rodriguez, 968 F.2d 130 (2d Cir. 1992) and
held that the eavesdropping warrant was “executed”
in Brooklyn when the phone calls were overheard by
law enforcement officers in Brooklyn. Additionally,
the Appellate Division rejected the notion that the
eavesdropping
warrants
constituted
an
unconstitutional extraterritorial application of New
York State law.
Appeal To The New York Court of Appeals
The New York Court of Appeals granted Mr.
Schneider’s motion for leave to appeal, and on June

18
3, 2021, issued a split decision. The majority opinion
held that a New York judge may issue a wiretap order
on phone calls entirely outside the state of New York
where the phone company redirects the signal back
to the judge’s jurisdiction. The place where the phone
conversation is overheard, the majority asserted, was
the place of interception.
The dissenting opinion found that there was no
factual basis for a New York Judge to wiretap Mr.
Schneider’s phone when neither his phone calls nor
activities ever touched New York. Additionally, the
dissenting judges found that when New York’s
wiretap statutes were passed (shortly after the
Omnibus Crime Control and Safe Streets Act of 1968)
wiretaps were carried out by physically tapping lines
and the police had to be in the same physical
jurisdiction as the phone they were tapping. Thus,
the legislature could never have fathomed that a
phone could be wiretapped by instructing a cellular
service carrier to redirect out-of-state phone signals
to New York, and there is nothing in the legislative
history that suggests that state judges can divert
purely out-of-state voice calls back to New York.

19
It
is
undeniable
that
New
York’s
eavesdropping statutes, Article 700 of New York’s
Criminal Procedure Law, were written under the
framework of Title III’s enabling statute. Because the
Court of Appeals majority opinion found that
execution of the warrant depends only on the action
of law enforcement, it held that it does not matter the
location of the target, the target’s communication
devices or the participants engaged in the call.
The New York Court of Appeals’ majority
opinion gives a New York State judge authority to
issue wiretap orders on any two phones anywhere in
the nation, regardless of the point of origin or point of
reception of the call. This holding allowed a Brooklyn
judge to extend the eavesdropping laws of New York
into another state’s jurisdiction where that state’s
eavesdropping laws conflict with New York’s.
California does not permit eavesdropping for the
offense of gambling while New York does, and
California law does not allow the wiretapping of
California citizens’ cell phones without a joint
investigation with California authorities. The
Brooklyn District Attorney never made an
application to a California court for an eavesdropping

20
warrant and never contacted California law
enforcement before wiretapping Mr. Schneider’s
phone.
The New York Court of Appeals held that the
issues
raised
regarding
Mr.
Schneider’s
constitutional rights as a California resident, the
separate sovereign’s doctrine, and other rights based
on Mr. Schneider’s California citizenship were
without merit.

21
REASONS FOR GRANTING THE WRIT
EXTRATERRITORIAL WIRETAP ORDERS BY
STATE JUDGES ARE BEYOND THE SCOPE OF
AUTHORITY PERMITTED UNDER TITLE III AND
CONSTITUTE AN
SOVEREIGNTY AS

INVASION OF
THEY ALLOW

STATE
STATE

JUDGES TO PROJECT CRIMINAL STATUTES
INTO SISTER STATES’ JURISDICTIONS
The scope of authority for state judges to issue
wiretap orders under Title III is limited. In fact,
§2516(2) is silent on the territorial reach with no
express or implied authority for state judges to issue
such orders beyond the borders of their state. Had
Congress intended for states to have such authority,
it would have plainly said so in the statute.
Additionally, it may be presumed from the limited
express and inferred authority given to federal judges
under §2516(1), which is blatantly absent from the
enabling statute for state judges, that Congress never
intended for state judges to authorize wiretaps
beyond their borders.

22
Extending the territorial reach of state judges
and permitting them to impose one state’s criminal
statutes in another state’s jurisdiction is antithetical
to the words of Title III, to the interpretation of
criminal statutes in general, to the common law
principles of territoriality, and, most importantly, to
the sovereignty of each state as they must be
permitted to establish criminal laws within their
jurisdictions as their separate and independent
legislatures see fit, without interference or
imposition from other states.
The Pressing Question Of A State Judge’s Territorial
Reach To Issue Wiretap Orders Under Title III’s
Enabling Statute Is Squarely Presented In This Case
The question of the territorial reach of a state
court judge’s eavesdropping orders and whether they
may stretch beyond the borders of the issuing judge’s
state and into the jurisdiction of other states is
squarely presented to this Court for the first time.
The issue was raised at each level of litigation in this
case as outlined above in all of New York’s appellate
courts, including the New York Court of Appeals.
Although this Court has dealt with factually similar

23
cases, the legal questions presented in those cases
were ancillary to the question of the extraterritorial
reach of a judge’s eavesdropping orders presented
here. See State v. Ates, 86 A.3d 710 (N.J. 2014);
Dahda v. United States, 138 S.Ct. 1491 (2018).
The Enabling Statute’s Silence On The Territorial
Reach Of State Judges’ Wiretap Orders Has Fomented
A Patchwork Of State Wiretap Laws.
Because the enabling statue under Title III is
silent on the question of the territorial reach of a state
judge’s wiretap orders, state legislatures have
enacted statutes that vary on the question of how far
a state judge’s wiretap orders may travel. While some
state statutes are silent on the territorial reach of
wiretap orders, others have express provisions
allowing them to issue such orders on cell phones
beyond the states’ borders. Although the states’ laws
vary on territorial reach, many states look to federal
case law to interpret their statutes, even though the
enabling statutes for federal and state judges are
quite different.

24
For example, in this case, New York’s
eavesdropping statutes are silent on the territorial
reach of a judge’s eavesdropping orders; however, the
New York Court of Appeals, citing to United States v.
Rodriguez, 968 F.2d 130 (2d Cir. 1992), has
interpreted New York’s wiretap statute (N.Y. CPL
§700.05(4)) by finding that, although the phones
tapped were all located outside the state, the warrant
was “executed” within the judge’s jurisdiction
because the signal was redirected to Brooklyn at a
listening post within the court’s jurisdiction.
In New Jersey, the eavesdropping law defines
the point of interception as the site where law
enforcement is located. See N.J. Stat. Ann. §
2A:156A-2(v). New Jersey’s Supreme Court has
interpreted this statute as giving New Jersey courts
jurisdiction to wiretap cell phones when the calls
originate and terminate outside the state. State v.
Ates, 86 A.3d 710 (N.J. 2014).
Maryland’s wiretap statute states that the
communication device (a cell phone) does not have to
be within the jurisdiction of the court at the time of
interception. (See Md. Code Ann., Cts. & Jud. Proc. §

25
10-408(c)(3)) Maryland courts have interpreted this
as giving authority to its judges to wiretap phone
calls that originate and terminate outside the state.
Davis v. State, 43 A.3d 1044 (Md. 2012).
Delaware’s wiretap statute expressly permits
the interception of mobile telephone communications
whether the phone is within the jurisdiction of the
court or not, but requires that the application for the
order allege that the offense investigated may
transpire in the jurisdiction of the court. See Del.
Code Ann. tit. 11, § 2407(c)(3).
In Nebraska, a judge may enter an order
authorizing interception of mobile telephone
communications within the territorial jurisdiction of
the court. See Neb. Rev. Stat. Ann. § 86-293(3).
Nebraska’s Supreme Court, relying on federal case
law, has interpreted this statute to authorize the
interception of out of state mobile phone calls as long
as the signal is redirected to a listening post within
the judge’s jurisdiction. State v. Brye, 935 N.W.2d 438
(Neb. 2019).

26
The Issue Of Territorial Reach Of Wiretap Orders Has
Created A Split Of Authority In The Federal Circuit
Courts.
The issue of territorial reach of wiretap orders
has created a split of authority in federal courts and
across the Circuits. Although the enabling statute for
federal judges, 18 U.S.C. §2516(1), is different than
that for state judges, the ambiguity regarding federal
judges’ territorial reach under §2518(3) has created
various interpretations that warrant this Court’s
attention. Section 2518(3) states that a district court
judge may approve a tap “within the territorial
jurisdiction of the court in which the judge is sitting
(and outside that jurisdiction but within the United
States in the case of a mobile interception device
authorized by a Federal court within such
jurisdiction).” The ambiguity of the phrases “mobile
interception device” and “Federal court within such
jurisdiction” have created numerous interpretations
regarding the territorial reach of a wiretap order
issued by federal judges.
In United States v. Ramirez, the Seventh
Circuit addressed the issue of territorial jurisdiction

27
and the definition of “mobile interception device”
found in 18 U.S.C. §2518(3). 112 F.3d 849 (7th Cir.
1997). In that case, the government had applied for a
wiretap order from a district court judge in the
Western District of Wisconsin while the phone and
the listening post were both in Minnesota. The
Seventh Circuit held that neither the location of the
phone nor the location of the listening post affected
the legality of the tap.
Conversely, in the Fifth Circuit it was held
that the district court located in the Southern District
of Mississippi did not have territorial jurisdiction to
issue a wiretap order on phones located in Texas
where the calls were being monitored in Louisiana.
United States v. North, 728 F.3d 429 (5th Cir. 2013)
(Case No. 11-60763), withdrawn. Although the Fifth
Circuit later withdrew its opinion and issued a second
opinion (U.S. v. North, 735 F.3d 212 (5th Cir. 2013))
that decided the case on different grounds, the
rationale of the first decision puts the Fifth Circuit at
odds with other Circuits on the issue of territorial
reach of wiretap orders.

28
The Fifth Circuit disagreed with the Seventh
Circuit’s holding regarding the definition of the
phrase “mobile interception device.” While the
Seventh Circuit held that a mobile interception
device, mentioned in 18 U.S.C. §2518(3), refers to the
mobility of the device being intercepted, i.e. the
phone, the Fifth Circuit conversely, in its initial
opinion, found that the phrase mobile interception
device referred to the mobility of the thing
intercepting, not the phone. This finding has
implications on the territorial reach of a wiretap
order because under this interpretation either the
phones or the device intercepting must be within the
issuing judge’s jurisdiction. Additionally, the Fifth
Circuit, in the first opinion, found that the lack of
territorial jurisdiction required suppression because,
under 2518(10)(ii), when an authorization is
insufficient on its face where the district court lacked
territorial jurisdiction, a core concern is implicated.
North, 728 F.3d 429 (5th Cir. 2013) (Case No. 1160763), withdrawn.
In United States v. Glover, 736 F.3d 509 (D.C.
Cir. 2013), the D.C. Circuit held that where the FBI
obtained a warrant from the district court for the

29
District of Columbia for an audio recording device to
be placed on a truck located in Baltimore, the
warrant was insufficient on its face because the place
where the device was to be installed was outside the
district court’s jurisdiction. The warrant stated that
the agents could enter the truck whether it was
located in the District of Columbia, District of
Maryland, or the Eastern District of Virginia. The
D.C. Circuit held that “a judge cannot authorize the
interception of communications if the mobile
interception device was not validly authorized, and a
device cannot be validly authorized if, at the time of
the warrant is issued, the property on which the
device is to be installed is not located in the
authorizing judge’s jurisdiction. A contrary reading
would render the phrase ‘authorized by a Federal
court
within
such
jurisdiction’
superfluous.” Glover, 736 F.3d at 514.

completely

In United States v. Dahda, 138 S.Ct. 1491
(2018), the issue was whether wiretap orders issued
by the district court from the District of Kansas were
facially insufficient where the orders authorized the
interception of phones in Kansas from a listening post
in Kansas and authorized interception using a

30
listening post in Missouri as well. Ultimately, the
evidence obtained from the Missouri listening post
was not introduced at trial. This Court held that not
every defect in a wiretap order renders the order
facially insufficient, and, absent the challenged
language, the wiretaps that produced evidence
introduced at trial were properly authorized. In a line
of dicta, this Court found that a listening post within
the court’s territorial jurisdiction could lawfully
intercept communications made to or from
telephones located within Kansas or outside Kansas.
The language of 2518(3) has still not been
settled regarding the territorial reach of federal
judges’ wiretap orders. Whether or not the same
language in 2518(3), applicable to Federal judges, is
also applicable to state judges remains an
unanswered question. The split of authority amongst
Federal Circuits only renders the question of
territorial reach of state judges more nebulous,
requiring this Court’s attention.

31
Extraterritorial Wiretap Orders Are An Invasion Of
State Sovereignty
When states impose their version of wiretap
laws in a sister state jurisdiction, they undermine
Congress’s main goals when it enacted Title III:
uniformity and consistency in the authorization of
wiretap orders. But more than disassociating from
Title III’s stated policies, the extraterritorial
application of a states’ criminal laws is an invasion of
state sovereignty and an invitation to conflict.
In 1968, the animating force in enacting Title
III was Congress’s concern with “the tremendous
scientific and technological developments that have
taken place in the last century that have made
possible today the widespread use and abuse of
electronic surveillance techniques. As a result of
these developments, privacy of communication is
seriously jeopardized by these techniques of
surveillance.” S. Rep. No. 1097, 90th Cong. at 2154
(1968).
Congress’s concerns in 1968, when the number
of wiretap orders was a mere fraction of what it is

32
today, are more relevant now than ever. In fact, the
listening post rule that has become almost standard
amongst federal circuits has become so due to new
developments in technology. Wiretaps cross the
borders of cities, counties, and states with the flick of
a switch at the phone company, and law enforcement
never even leaves its office. This is a technology and
a level of invasiveness never imagined by the authors
of Title III.
The phone company, through use of “switching
station” technology, can now re-direct phone
conversations between any two phones in any two
cities from anywhere in the nation to anywhere in the
nation the police choose to listen in. The erosion of
privacy and uniformity, along with state borders and
state sovereignty is the result.
To foster use of the listening post rule, state
courts have devised their own fictionalized definition
of interception. The theory is that the interception
occurs in two places simultaneously: at the situs of
the phone and at the listening post where the phone
conversation is redirected and first overheard.

33
However, the technology of signal re-direction tells a
different story.
The switching station that the phone company
used to re-direct the signal in this case was in
California. The phone signal was captured in
California – where state law permits neither
wiretapping of gambling offenses nor wiretapping
without a joint investigation with California law
enforcement – then by order of a New York judge, redirected to the listening post in Brooklyn.
Despite the capture of the signal at the
regional
switching
station
nearest
Joseph
Schneider’s phone in California at the direction of a
New York judge, the New York Court of Appeals held
that “the rerouting of cell phone communications by
third-party service providers to the point of execution
… is not itself the court-ordered interception.” The
Court devised a fictional work-around when the
phone company acts as agent of law enforcement in
redirecting phone conversations, holding that the
phone company’s switching technology was “a
preparatory step to effectuate the execution of

34
eavesdropping warrants by government agents.”
2021 NY Slip Op 03486 at 6.
By re-imagining the point of interception of a
phone call, the Court of Appeals dragged the invasive
extraterritorial application of New York’s criminal
statutes in California back into Brooklyn. The
chimerical repositioning of the point of interception
allows one state to impose its criminal laws within a
sister state’s jurisdiction by redefining the word
“intercept.” The wiretap order required someone to
capture Joseph Schneider’s phone signal at a regional
switching station near his phone in California. When
the service provider redirected the phone signal in
California it acted as agent of New York law
enforcement and carried out the wiretap order of a
New York judge within the borders of California and
in violation of California law.
The conflict in this case is representative of the
collision between the wiretap laws of many states.
The enabling statute’s silence on the territorial reach
of state wiretap orders is a failure to recognize that
sister states have exclusive sovereignty over their
own territories absent federal preemption. “When a

35
statute gives no clear indication of an extraterritorial
application, it has none.” Morrison v. National
Australia Bank Ltd., 561 U.S. 247, 255 (2010); Kiobel
v. Royal Dutch Petroleum Co., 569 U.S. 108, 115
(2013). One state may not supplant the laws of a
sister state within that sister state’s borders.
In addition to the invasion of sovereignty, the
extraterritorial application of criminal laws violates
the due process rights of the individual citizens.
When California, or any other state, enacts a statute,
its citizens are protected by and entitled to legitimate
expectations and reliance on those laws.
The Extraterritorial Application Of Criminal Statutes
Violates The Due Process Rights Of Sister State
Citizens
Territorial reach and the discrepancies in the
listed offenses of states’ eavesdropping laws are
critical. Every citizen of every state is entitled to
know the extent of the law of the state in which they
reside and is entitled to the protection of the laws of
their home state. When one state projects its criminal
statutes into another, the citizen is denied both

36
procedural and substantive due process. Joseph
Schneider had the right to have a California judge
review the wiretap application before his phone was
wiretapped. He had that right under both the Fourth
Amendment of the U.S. Constitution and Article I
Section 13 of California’s Constitution. He was
denied that right and denied due process.
This Court has consistently held that the
extraterritorial application of a state’s laws violates
the due process right of the citizen. In Nielsen v.
Oregon, 212 U.S. 315, 321 (1909), this Court held that
Oregon cannot apply its criminal statutes within the
state of Washington where the opinion of the
legislatures of the two states is different, one state
cannot enforce its opinion against that of the other as
to an act done within the limits of that other state. In
Allgeyer v. State of La., 165 U.S. 578 (1897), this
Court found that a statute violates due process and is
unconstitutional where it prohibits making of
contracts outside the state. Again, in New York Life
Ins. Co. v. Head, 234 U.S. 149, 161 (1914), this Court
held that it would be impossible to permit the
statutes of Missouri to operate beyond its jurisdiction
because it would destroy freedom of contract, throw

37
down constitutional barriers of the States, and
interfere with their lawful authority. The
preservation of the lawfully distinct status of the
states is a fundamental element of our Constitution.
In this case, when the Omnibus Crime Control
and Safe Streets Act was passed, it was envisioned
that the enabling statute, §2516(2), would allow each
state to pass wiretap laws within that framework as
they saw fit. When wiretap offenses vary from state
to state and one state imposes its laws in another
jurisdiction, as was done here, it violates the due
process right of that sister state’s citizens. The Kings
County District Attorney imposed New York’s
wiretapping laws in the State of California in
violation of California law where gambling is not a
listed offense and where interstate eavesdropping is
not permitted without a joint investigation with
California law enforcement.
The Variation In State Laws Creates Conflict Among
The States: Different Criminal Offenses Are Subject
To Wiretap Orders.
The geographic range of wiretap orders has far
reaching consequences regarding the independent

38
sovereignty of the states, especially where states
enact conflicting eavesdropping statutes that subject
different criminal offenses to eavesdropping orders.
For example, in this case, California law excludes
gambling as an offense for which eavesdropping
orders may be issued (Cal. Penal Code § 629.52),
while New York law includes gambling in its list of
offenses (N.Y. Criminal Procedure Law §700.05(8)(c).
When a New York judge imposes a wiretap order on
a cell phone located in California for the offense of
gambling, the judge projects a New York criminal
statute beyond the borders of New York into a sister
state, and in conflict with California law.
This statutory distinction is not exclusive to
California and New York. Many states like New
York, Illinois, and Pennsylvania include long lists of
offenses that are subject to wiretap orders (See N.Y.
CPL §700.05(8); 725 Illinois Compiled Statutes
Annotated 5/108B-3(a); Pennsylvania: 18 Pa.C.S.A.
§5708(1)), while other states like Alaska, Hawaii, and
Nebraska have extremely shorts lists of offenses. (See
Alaska Stat. Ann. § 12.37.010; Haw. Rev. Stat. Ann.
§ 803-46; Neb. Rev. St. §86-291). The ubiquitous
nature of cell phones and mobile electronic devices

39
coupled with the extraterritorial application of state
wiretap laws for various criminal offenses presages
repeated conflict among the states.
States That Permit Wiretap Orders On Cellphones
Beyond Their Borders Run Afoul Of Common Law
Territorial Principles.
Under common law, state jurisdiction is
grounded upon territorial principles. A state only has
power to make conduct or the result of conduct a
crime if the conduct takes place or the result happens
within its territorial limits. State v. Cain, 757 A.2d
142, 145 (Md. 2000); State v. Smith, 421 N.W.2d 315,
318 (Minn. 1988); State v. Darroch, 287 S.E.2d 856,
863 (N.C. 1982). Thus, for the majority of crimes,
either the criminal act or its effect had to occur within
the territory of the state in order for someone to be
charged within the state.
However, even under the common law in
crimes which encompass acts and consequences in
more than one state, it is required that the court
localize the whole crime for jurisdictional purposes on
one side of a political boundary line. See Larry

40
Kramer, Jurisdiction over Interstate Felony Murder,
50 U. Chi. L. Rev. 1431, 1434 (1983). The method
chosen by common law judges to localize a crime is to
select a single point in space and time where it is said
that the crime was committed. Id. This point, the
“locus of the offense,” determines jurisdiction over
the offense and the offender. Courts identify the
“locus of the offense” as the place where the “gist of
the offense”' occurred. Id. The “gist of the offense” is
that element or those elements essential to
demonstration of the existence of the crime—the
gravamen of the offense or its most important aspect.
In this case, the Kings County District
Attorney and its wiretap applications show that the
acts of Joseph Schneider never occurred in New York.
In fact, the “Probable Cause” section of the affidavit
in support of the wiretap order stated that Joseph
Schneider was in contact with many other states,
including Arkansas, Colorado, Florida, Michigan,
Hawaii, Nevada, and Costa Rica. However, there was
no allegation that Mr. Schneider had committed any
act or crime in the State of New York or that he was
in contact with anyone in New York.

41
Thus, in this case, the extraterritorial
application of the wiretap orders, issued by a judge
sitting in Brooklyn, on Joseph Schneider’s phone in
California violated the common law principle of
territoriality because Joseph Schneider had no
territorial connection to New York. The listening post
rule asserted by the New York Court of Appeals,
which other states are bound to follow, projects the
criminal laws of one state into the sovereign
jurisdiction of another, engineering the collapse of
common law territorial principles.
The Enabling Statutes For Federal And State Judges
Are Written Differently And Must Be Interpreted
Differently.
Title 18 United States Code § 2516 has two
subsections. Subsection one is the enabling statute
for federal judges, which permits them to issue
wiretap orders. It contains an extensive list of
national and international crimes for which wiretap
orders may be issued. Conversely, §2516(2), the
enabling statute for state judges, enumerates a much
more limited number of crimes for which state judges
may issue wiretap orders, namely murder,

42
kidnapping, gambling, robbery, bribery, extortion, or
dealing in narcotic drugs, marihuana or other
dangerous drugs, or other crime dangerous to life,
limb or property and punishable by imprisonment for
more than one year. Commonly, each of the crimes
listed in 2516(2) takes place in one jurisdiction.
It is significant that subsection one is much
more extensive in the number and types of crimes
listed and in the inferred ability of federal judges to
issue eavesdropping and interception orders outside
of their jurisdictions. For example, 2516(1)
authorizes federal judges to issue eavesdropping
orders when Federal authorities are investigating
crimes such as arson within special maritime and
territorial jurisdiction, transportation of slaves from
United States, interstate and foreign travel or
transportation in aid of racketeering enterprises,
theft
from
interstate
shipment,
interstate
transportation of stolen property, conspiracy to harm
persons or property overseas, and relating to
construction or use of international border tunnels
(see 18 U.S.C. § 2516(1)(c)), the location of any
fugitive from justices (see 18 U.S.C. 2516(1)(l)), and

43
any crime relating to the smuggling of any aliens (see
18 U.S.C. § 2516(1)(m)).
The enabling statute for Federal judges infers
authority to issue eavesdropping orders on a host of
crimes that would naturally occur in more than one
geographic jurisdiction and outside the jurisdiction of
any single Federal judge. Not so in §2516(2).
Comparing the types of offenses listed in the two
subsections gives some insight into what the
legislature intended to be the geographic limits of
both federal and state judges in issuing wiretap
orders.
Additionally, section 2516(1) incorporates 18
U.S.C. § 2518, which gives the limited express
authority to a federal judge to issue an eavesdropping
order outside of a Federal judge’s geographic
jurisdiction. Section 2518(3) states: “…the judge may
enter an ex parte order, as requested or as modified,
authorizing or approving interception of wire, oral, or
electronic communications within the territorial
jurisdiction of the court in which the judge is sitting
(and outside that jurisdiction but within the United
States in the case of a mobile interception device

44
authorized by a federal court within such
jurisdiction) …” Thus, under the enabling statute for
federal judges, any wiretap outside the jurisdiction of
the judge by use of a mobile interception device must
be authorized by a Federal court within the
jurisdiction of the mobile interception device. There
is no express permission for state judges to act
outside of their jurisdiction.
Because New York State’s eavesdropping
statute is modelled after, and derives its limited
authority from, the enabling statute under Title III of
the Omnibus Crime Control and Safe Streets Act (as
do all other states), a New York State judge does not
have the express or implied authority to issue
eavesdropping orders beyond the borders of New
York State. This is especially true where none of the
communications touched New York and there was no
nexus between Joseph Schneider’s wiretapped phone
calls with any crime committed within the borders of
New York State.

45
The Listening Post Rule: Allowing States To Project
Their Laws Into Other Jurisdictions And Redirect
The Phone Signal Back To The Jurisdiction Of The
Issuing Judge Encourages Forum Shopping.
When a state judge can order the signal
between two phones anywhere in the nation to be redirected into his jurisdiction, it encourages forum
shopping by the prosecution. The location of the cell
phones no longer matters because the phone company
can redirect the signal to any location. Law
enforcement will, therefore, gravitate to the place of
least resistance, i.e. where a judge is most likely to
sign a wiretap order.
The statistical data from wiretap reports
strongly suggests that wiretap applications and
orders are concentrated in specific areas. The data in
New York and California both show a very high
number of wiretap authorizations that do not
correlate to the population of either state. The data
shows that the number of wiretap authorizations in
those two jurisdictions, in fact, far exceeds what one
would expect given the population density.

46
For example, New York State makes up about
6% of the population in the United States1 and New
York State judges (not including federal judges in
New York) consistently make up one of the largest
percentages of wiretap authorizations nationally. In
2020 New York State judges accounted for 23% of all
state court wiretap authorizations nationwide 2 ; in
2019 New York State judges accounted for 28% of
state court wiretap authorizations nationwide 3 ; in
2018 they accounted for 22% of all state wiretaps4; in

1

https://www.census.gov/quickfacts/fact/dashboard/NY,US/PST0
45219
2

https://www.uscourts.gov/statistics-reports/wiretap-report-

2020
3

https://www.uscourts.gov/statistics-reports/wiretap-report-

2019
4

https://www.uscourts.gov/statistics-reports/wiretap-report-

2018

47
2017 they accounted for 23% of all such wiretaps5; in
2016, 19%6; and in 2015, 19%7.
Equally alarming statistics come from the
State of California (not including federal judges’
authorizations for wiretaps). In 2019, California
State judges accounted for 22% of all wiretap
authorizations nationwide; in 2018, California
accounted for 24% of such authorizations; in 2017,
California accounted for 34% of all such
authorizations; in 2016, California accounted for 35%
of all such authorizations; in 2015, California
accounted for 41% of all authorizations nationwide.8
State judges of New York and California, two
states containing roughly 18% of the U.S. population,

5

https://www.uscourts.gov/statistics-reports/wiretap-report-

2017
6

https://www.uscourts.gov/statistics-reports/wiretap-report-

2016
7

https://www.uscourts.gov/statistics-reports/wiretap-report-

2015
8

See footnotes 2 – 7 for statistics on California State judge

wiretap percentages.

48
authorized between 50 and 60% of all wiretap orders
by state judges nationwide from 2015-2020. This
means that New York and California authorized
more wiretaps than all other states combined. When
more than half the wiretap orders are concentrated
in two places over an extended period of time, it is
clear that prosecutors gravitate to those jurisdictions
to obtain such orders – they forum shop to obtain the
results they are looking for, to get wiretap orders
signed by a judge.
CONCLUSION
Since before the United States was a country,
the states were sovereign, separate, and distinct.
Independent of one another, they enacted laws
enforceable within their borders and as their
respective legislatures saw fit. Under our
Constitution, they were entitled to do so then, and are
entitled to do so now.
The enabling statute in Title III for state
judges permits each state to enact the wiretap
statutes as their respective legislatures see fit and
has created a national patchwork of wiretap laws.

49
The states’ laws are inconsistent with one another
and inconsistent with the stated goals of the Omnibus
Crime Control and Safe Streets Act of uniformity and
protection of privacy. When states project their
criminal statutes into another state it creates conflict
between sister states and is violative of the due
process rights of citizens.
The territorial principles of criminal statutes
and sovereign borders that have governed state
interaction under our constitution are abandoned
with the flick of a switch by the phone company.
Where and when a private conversation will be
subject to eavesdropping is now completely at the
whim of local police. Brooklyn can listen to Boise,
Phoenix to Philadelphia, San Diego to San Antonio,
and Dallas to Detroit; boundaries and borders are no
longer relevant when every state judge can claim that
the warrant was executed in his jurisdiction because
the phone company has a new technology that
permits the police to redirect the signal to their desks
wherever they may be.

50
This Court must grant this petition to
determine how far a state judge’s wiretap order may
travel.
Dated: August , 2021
Respectfully submitted,

Stephen N. Preziosi, Esq.
Counsel of Record
48 Wall Street, 11th Floor
New York, NY 10005
(212) 960-8267
info@appealslawfirm.com

APPENDIX

1a
AppendixOF
A THE COURT OF
APPENDIX A — OPINION
APPEALS OF NEW YORK, DATED JUNE 3, 2021

COURT OF APPEALS OF NEW YORK
No. 41
June 3, 2021, Decided
THE PEOPLE & c.,
Respondent,
v.
JOSEPH SCHNEIDER,
Appellant.
OPINION
DiFIORE, Chief Judge:
The issue raised on defendant’s appeal is whether a
Kings County Supreme Court Justice had jurisdiction to
issue eavesdropping warrants for defendant’s cell phones,
which were not physically present in New York, for the
purpose of gathering evidence in an investigation of
enterprise corruption and gambling offenses committed
in Kings County. To resolve defendant’s jurisdictional
challenge, we must decide whether the eavesdropping
warrants were “executed” in Kings County within the

2a
Appendix A
meaning of Criminal Procedure Law § 700.05(4). We
hold that eavesdropping warrants are executed in the
geographical jurisdiction where the communications are
intentionally intercepted by authorized law enforcement
officers within the meaning of CPL article 700. Accordingly,
the order of the Appellate Division should be affirmed.
I
Law enforcement officers in Kings County conducted a
two-year investigation into an illegal gambling enterprise.
In the early stages of the investigation, an undercover agent
met with defendant’s accomplice, PD, and placed bets at a
location in Kings County. A variety of investigative tools
were used to identify coconspirators and gather evidence,
including physical surveillance and the installation of a
bugging device and video surveillance at the Kings County
location. Investigators obtained eavesdropping warrants
on the cell phones of multiple targets, including targets
physically present in New York. Defendant’s participation
in the illegal gambling enterprise was uncovered when his
telephonic communications were intercepted pursuant to
a warrant authorizing eavesdropping on the cell phone of
PD, who regularly came to Kings County in furtherance
of the gambling enterprise. In the intercepted calls,
defendant and PD were overheard discussing passwordprotected internet accounts on sports gambling websites,
through which defendant controlled the usernames,
passwords, betting limits, gambling lines and spreads for
all his gambling clients.
The Kings County District Attorney applied for
eleven successive eavesdropping warrants to intercept

3a
Appendix A
communications on three cell phones linked to defendant,
at least two of which did not have subscriber information
but were connected to defendant by voice identification. A
Kings County Supreme Court Justice issued the warrants
after finding probable cause to believe that defendant
was engaging in designated gambling offenses in Kings
County, mainly through his website “thewagerspot.com,”
and that “normal investigative procedures . . . reasonably
appear[ed] to be unlikely to succeed,” justifying the use
of eavesdropping. The warrants, as provided by statute,
directed the particular communications service providers
that controlled and operated the telephone wires and
other digital and computer systems that transferred the
telephonic and electronic communications to “provide all
information, facilities, and technical assistance” to law
enforcement to execute the warrants in Kings County.
Defendant was subsequently indicted in Kings County,
along with seven others, for enterprise corruption,
promoting gambling and related crimes. Among other
acts attributed to defendant, the indictment alleged that
on seventeen specific dates between September 13, 2015
and January 3, 2016, in Kings County, defendant and
his accomplices received or accepted five or more illegal
sports wagers on each date through defendant’s gambling
website, totaling more than five thousand dollars on each
occasion. Defendant moved to suppress the evidence
obtained pursuant to the warrants1. He did not assert
that the government interception of his communications
1. Defendant’s suppression motion addressed only one of the
three intercepted phone numbers attributed to him.

4a
Appendix A
violated his constitutional privacy interests. Nor did he
dispute that the charges were properly brought in Kings
County based on the commission of designated crimes in
that location. Instead, as relevant here, defendant claimed
that the Kings County Supreme Court Justice lacked the
authority to issue the eavesdropping warrants because
defendant and his cell phones were not located in New
York and his intercepted communications involved call
participants who were not physically present in New York
and therefore execution of the warrants did not occur in
Kings County. He also claimed that the People violated
his due process rights, the separate sovereign doctrine
and other constitutional limitations because California law
does not include gambling offenses as designated crimes
for eavesdropping.
The suppression court denied the motion, concluding
that there was probable cause to believe that defendant
committed the designated gambling crimes (CPL
700.05[8]) in Kings County, that the warrant was executed
at a facility in Kings County where the communications
were overheard and accessed by author ized law
enforcement, and the warrants were properly issued by
a Justice in Kings County. The court further rejected
defendant’s claim that, under this approach, a judicial
warrant allows law enforcement to “re-route phone calls
being made anywhere in the country to Kings County
and thereby have nation-wide jurisdiction.” The court
concluded that since the crimes were allegedly committed
in Kings County, there was jurisdiction to prosecute
the crimes and a sufficient nexus for the issuance of the
eavesdropping warrants in that county.

5a
Appendix A
Defendant entered a guilty plea to all counts of
the indictment against him. The Appellate Division
affirmed the judgment, holding that the suppression
court properly denied defendant’s motion to suppress
the eavesdropping evidence because CPL article 700
authorized the Supreme Court Justice in Kings County
to issue warrants that would be “executed” in that court’s
judicial district, meaning where the communications
would be “intentionally overheard and recorded” (176
A.D.3d 979, 980, 112 N.Y.S.3d 248 [2d Dept. 2019], quoting
CPL 700.05[3][a]). The Court also rejected defendant’s
claim that the warrants represented an unconstitutional
extraterritorial application of New York state law. A Judge
of this Court granted defendant leave to appeal (34 N.Y.3d
1132, 118 N.Y.S.3d 511, 141 N.E.3d 467 [2019]).
II
There is no dispute here that law enforcement
agents must obtain a judicial warrant to intercept
real time cell phone communications. Historically, the
Fourth Amendment guarantee against unreasonable
searches and seizures (U.S. Const Amend IV) focused
on whether the government obtained information by
physical intrusions on constitutionally protected areas
(see Carpenter v. United States, ___ U.S. ___, 138 S. Ct.
2206, 2213, 201 L. Ed. 2d 507 [2018]; Olmstead v. United
States, 277 U.S. 438, 48 S. Ct. 564, 72 L. Ed. 944 [1928]).
However, over fifty years ago, it was established that
“‘the Fourth Amendment protects people, not places,’
[which] expanded [the] conception of the Amendment to
protect certain expectations of privacy’” (Carpenter, 138

6a
Appendix A
S. Ct. at 2213, quoting Katz v. United States, 389 U.S.
347, 351, 88 S. Ct. 507, 19 L. Ed. 2d 576 [1967]). Given
the more modern appreciation “that property rights are
not the sole measure of Fourth Amendment violations,”
a person’s right to privacy has become the paramount
concern in assessing the reasonableness of government
intrusions, especially as “innovations in surveillance
tools . . . ha[ve] enhanced the Government’s capacity to
encroach upon areas normally guarded from inquisitive
eyes,” and courts must continue to “secure the privacies
of life against arbitrary power” (id. at 2213–2214 [internal
quotations omitted]; see also Katz, 389 U.S. at 351–352;
Riley v. California, 573 U.S. 373, 381–382, 134 S. Ct. 2473,
189 L. Ed. 2d 430 [2014]).
In New York, article I, § 12 of the New York State
Constitution authorizes the issuance of eavesdropping
warrants as a law enforcement investigative tool to
overhear and intercept telephonic communications,
provided that certain safeguards against unreasonable
privacy invasions are met. “[I]n addition to tracking the
language of the Fourth Amendment” (People v. Weaver,
12 N.Y.3d 433, 438-439, 909 N.E.2d 1195, 882 N.Y.S.2d
357 [2009]), article I, § 12, adopted in 1938, provides in
relevant part that:
“[t]he right of the people to be secure against
unreasonable interception of telephone and
telegraph communications shall not be violated,
and ex parte orders or warrants shall issue
only upon oath or affirmation that there is
reasonable ground to believe that evidence of

7a
Appendix A
crime may be thus obtained, and identifying
the particular means of communication, and
particularly describing the person or persons
whose communications are to be intercepted
and the purpose thereof.”
New York State’s express constitutional pr ivacy
protections for telephonic communications predated the
United States Supreme Court’s recognition of the Fourth
Amendment protection against eavesdropping (see Katz,
389 U.S. at 351–353; see also People v. Capolongo, 85
N.Y.2d 151, 158, 647 N.E.2d 1286, 623 N.Y.S.2d 778 [1995]).
Yet, our early statutory procedure for obtaining evidence
by wiretap order was struck down as unconstitutional
under the Fourth Amendment due to the absence of
additional protections, given the gravity of the privacy
invasion in overhearing the content of the communications
(see Berger v. New York, 388 U.S. 41, 87 S. Ct. 1873, 18 L.
Ed. 2d 1040 [1967]). 2
In response to United States Supreme Court decisions
in Katz and Berger, which invalidated government
eavesdropping operations based on their failure to employ
2. The federal exclusionary rule recognized in Weeks v. United
States (232 U.S. 383, 34 S. Ct. 341, 58 L. Ed. 652, T.D. 1964 [1914]),
prohibiting the use in federal court of any evidence seized in violation
of the Fourth Amendment was extended to illegally seized wiretap
evidence (see Nardone v. United States, 302 U.S. 379, 58 S. Ct. 275,
82 L. Ed. 314 [1937]). New York followed suit in 1962, enacting CPLR
4506, which barred admission of any eavesdropping evidence that
was unlawfully obtained (see Capolongo, 85 N.Y.2d at 158, citing L
1962, ch 308).

8a
Appendix A
adequate privacy protections (see Capolongo, 85 N.Y.2d
at 159), Congress enacted Title III of the Omnibus Crime
Control and Safe Streets Act of 1968 (18 USC § 2510 et seq.)
(Title III), “imposing upon the States minimum standards
for electronic surveillance” (Capolongo, 85 N.Y.2d at 159;
see also L 1969, ch 1147). States were permitted to adopt
procedures and standards that were more restrictive than
those imposed by federal law or to prohibit wiretapping
completely (see id.; see also 18 USC § 2516).
Soon after Title III was enacted, our state legislature
enacted CPL article 700, which sets forth the procedural
mechanism for securing a court-ordered eavesdropping
warrant (see Capolongo, 85 N.Y.2d at 159). In enacting
article 700, the state legislature sought to “afford law
enforcement ‘greater flexibility in the employment of
eavesdropping as an effective weapon against crime’ and,
in particular, organized crime, ‘where the obtaining of
evidence for successful prosecutions is often extremely
difficult’” (People v. Rabb, 16 N.Y.3d 145, 151, 945 N.E.2d
447, 920 N.Y.S.2d 254 [2011], quoting Governor’s Approval
Mem, Bill Jacket, L 1969, ch 1147, 1969 NY Legis Ann,
at 586). Complying with federal law, New York also gave
effect to our “strong public policy of protecting citizens
against the insidiousness of electronic surveillance”
by requiring strict compliance with CPL article 700
(see Capolongo, 85 N.Y.2d at 159–160). Issuance of
the eavesdropping warrants based on demonstrated
probable cause, which is not challenged here, satisfied the
overarching constitutional privacy protections.
Before discussing the relevant statutory language as
to what constitutes the point of execution of the warrant

9a
Appendix A
for the purpose of jurisdiction under CPL 700.05, some
context with regard to the geographical predicates
to conduct eavesdropping investigations and issue
eavesdropping warrants is instructive. As a first principle,
the court’s jurisdiction to issue eavesdropping warrants is
not boundless, but is limited by the rules of geographical
jurisdiction set forth in our state constitution and CPL
article 20. Under our State Constitution, a defendant
generally has a right to be tried in the county where
the crime was committed (see People v. Greenberg, 89
N.Y.2d 553, 555, 678 N.E.2d 878, 656 N.Y.S.2d 192 [1997];
NY Const, art I, § 2). A person may be prosecuted in a
particular county where conduct occurred establishing
an element of an offense or an attempt or a conspiracy to
commit such offense (see CPL 20.40 [1]). Even where no
conduct was committed within the county, a person may
be prosecuted there under certain circumstances, such
as where the result of an offense “occurred within such
county” (CPL 20.40 [2]; see also CPL 20.60 [3] [causing the
use of a computer service in one jurisdiction from another
jurisdiction is deemed a use in both jurisdictions]).
Once the jurisdictional predicate to prosecute the
crime in a particular county is established, as it was
here, then, under CPL 700.10 (1), “a justice may issue
an eavesdropping warrant . . . upon ex parte application
of an applicant who is authorized by law to investigate,
prosecute or participate in the prosecution of the
particular designated offense which is the subject of the
application.” Because this was a county-based prosecution
(see CPL 20.40), the prosecutor authorized to prosecute
the designated crimes in that jurisdiction—the Kings

10a
Appendix A
County District Attorney—was the proper warrant
applicant (see CPL 700.05[5]).
Turning next to the operative statutory language
gover ning the “ manner and time of execution,”
CPL 700.35(1) provides that “[a]n eavesdropping . . .
warrant . . . must be executed according to its terms by
a law enforcement officer who is a member of the law
enforcement agency authorized in the warrant to intercept
the communications . . . .” The law enforcement officers
here were competent to execute the warrants because
they were authorized to investigate and arrest defendant
in the jurisdiction where the interception occurred (see
CPL 700.05[6]). Notwithstanding the dissent’s suggestion
that defendant had no connection to New York (dissenting
op at 8), the investigation and prosecution of defendant
and his accomplices based on their participation in the
gambling enterprise that operated in Kings County
are not challenged and were jurisdictionally sound (see
People v. Di Pasquale, 47 N.Y.2d 764, 765, 391 N.E.2d
710, 417 N.Y.S.2d 678 [1979]; CPL 20.40; see also People v.
Carvajal, 6 N.Y.3d 305, 312, 845 N.E.2d 1225, 812 N.Y.S.2d
395 [2005]).
Despite the satisfaction of the jurisdictional and
probable cause predicates in this case as mandated
by our constitution and CPL articles 20 and 700,
defendant challenges the jurisdiction of a Supreme
Court Justice presiding in Kings County to issue the
eavesdropping warrants on the theory that the court
acted extraterritorially. Specifically, defendant claims
that the warrants were not “executed” in Kings County

11a
Appendix A
as required by CPL 700.05(4) because his cell phones were
not physically located in New York and his communications
occurred outside of New York3. Resolution of this discrete
challenge depends on the statutory interpretation of the
word “executed” as used in CPL 700.05(4), a term that
is not defined in CPL article 700. CPL article 700, which
sets forth the procedural mechanism of securing a court
ordered eavesdropping warrant, and Penal Law § 250.00,
which contains definitions used in article 700, provide the
framework to determine where the warrants targeting
defendant’s communications were executed.
When resolving a question of statutory interpretation,
the primary consideration is to ascertain and give effect
to the legislature’s intent (see Matter of Marian T., 36
N.Y.3d 44, 49, 137 N.Y.S.3d 272, 161 N.E.3d 460 [2020]).
The starting point in determining legislative intent is to
give effect to the plain language of the statute itself—”’the
clearest indicator of legislative intent’” (id., quoting
Majewski v. Broadalbin-Perth Cent. School Dist., 91
N.Y.2d 577, 583, 696 N.E.2d 978, 673 N.Y.S.2d 966 [1998]).
Additionally, when the language at issue is a component
part of a larger statutory scheme, the language must be
analyzed in context and the related provisions must be
harmonized and rendered compatible (see id. at 49). We
are also “governed by the principle that we must interpret
a statute so as to avoid an unreasonable or absurd
3. Although defendant claims that his calls were not made
to parties in New York, the suppression court specifically found
in denying defendant’s suppression motion that “defendants were
calling people in New York state from California and as such, a clear
connection is established with New York state and Kings County.”

12a
Appendix A
application of the law” (People v. Garson, 6 N.Y.3d 604,
614, 848 N.E.2d 1264, 815 N.Y.S.2d 887 [2006] [internal
quotation marks and citations omitted]).
To begin, under CPL 700.05(4), “any justice of
the supreme court of the judicial district in which the
eavesdropping warrant is to be executed” is authorized to
issue an eavesdropping warrant (emphasis added). When
section 700.05(4) is read as an integrated whole and in a
commonsense manner along with other sections of the CPL
and correlative Penal Law definitions, the statute makes
plain that a warrant is “executed” at the time when and at
the location where a law enforcement officer intentionally
records or overhears telephonic communications and
accesses electronic communications targeted by the
warrant. Contrary to defendant’s theory, a plain reading of
CPL article 700 demonstrates that “execution” of a warrant
depends on the action of authorized law enforcement
officers vis-à-vis the communications and does not depend
on the location of a target, the target’s communication
devices or the participants engaged in the call. Indeed,
wiretapping occurs upon “the intentional overhearing or
recording of telephonic . . . communication[s]” and that
statutory definition expressly excludes the actions of
telecommunications providers in their normal operations
(Penal Law § 250.00[1]).
“Eavesdropping” contemplates the performance
of specific acts by government actors in three ways—
wiretapping, mechanical overhearing of a conversation, or
intercepting or accessing of an electronic communication
(see CPL 70 0.05[1]). The judicial war rants here

13a
Appendix A
authorized interception of both telephonic and electronic
communications. Telephonic communications, when
“intentionally overheard or recorded . . . by means of
any instrument, device or equipment,” are “[i]ntercepted
communication[s]”—as are electronic communications
that are “intentionally intercepted and accessed” (CPL
700.05[3]; Penal Law § 250.00[6]). Given the inclusion
of telephonic communications in the definition of
“intercepted communication,” the dissent’s view that the
legislature inexplicably failed to authorize interception and
“wiretapping” of telephonic communications occurring on
cellular phones is meritless (see dissenting op at 10–11).
Notably, under the dissent’s rather absurd hypothesis, the
government apparently could not eavesdrop on cellular
communications even where a cell phone or call participant
is located within New York’s borders.
Mirroring the federal definition of a wire communication,
this state defines telephonic communication as “any aural
transfer made in whole or in part through the use of
facilities for the transmission of communications by the
aid of wire, cable or other like connection between the
point of origin and the point of reception (including
the use of such connection in a switching station) . . . .”
(Penal Law § 250.00[3] [emphasis added]; see also 18
USC § 2510 [1]). An “aural transfer” means “a transfer
containing the human voice at any point between and
including the point of origin and the point of reception”
(Penal Law § 250.00[4]; see also 18 USC § 2510[18]). In
contrast, “electronic communication” includes the transfer
of various signals and data transmitted by wire (Penal
Law § 250.00[5]). Based on these definitions, execution

14a
Appendix A
of the warrants occurs at the point where authorized
law enforcement intentionally overhears or records the
human voice contained in telephonic communications and
intentionally accesses the transferred signals or data in
the electronic communications.
The legislative history accompanying substantive
amendments made to CPL article 700 and Penal Law
§ 250.00 in 1988 demonstrates that the revisions were
designed to keep pace with emerging technologies “as well
as to bring New York law into conformity with the thenexisting federal law [18 USCA § 2510 et seq.]” (William C.
Donnino, Practice Commentaries, McKinney’s Cons Laws
of NY, Book 11A, Penal Law § 250.05; see also Senate
Introducer’s Mem in Support, Bill Jacket, L 1988, ch 744
at 8–9). Through the 1988 amendments, the legislature
clearly intended to continue the availability of wiretapping
to be accomplished by the overhearing of “cellular and
cordless telephonic communications” (William C. Donnino,
Practice Commentaries, McKinney’s Cons Laws of NY,
Book 11A, Penal Law § 250.05), and to add the ability to
capture communications involving “various new forms of
electronic communications” (Governor’s Approval Mem,
Bill Jacket, L 1988, ch 744 at 6). The statutory definitions
of “eavesdropping and wiretapping” were revised at that
time “to distinguish . . . the tapping of telephone and
telegraph communications, the mechanical overhearing
of conversations or discussion, and the interception
of data transmission” based on emerging electronic
technologies (Mem in Support, Bill Jacket, L 1988, ch
744 at 8). These amendments were enacted well after the
Federal Communications Commission approved the use

15a
Appendix A
of cellular telephone services in 1981 (see Rep of Senate
Judiciary Commn at 9, S Rep 99–541, 99th Cong, 2d Sess,
1986). Acknowledging that law enforcement would require
technical assistance in executing warrants involving
modern modalities for both telephonic and electronic
communication, the legislature’s 1988 amendments
“authorize[d] courts to direct that providers of wire or
electronic communication services furnish the applicant
with necessary assistance to accomplish unobtrusi[ve]
interception,” which was codified in CPL 700.30 (9) (Letter
from Div. of Criminal Justice Servs., Dec. 23, 1988, Bill
Jacket, L 1988, ch 744 at 12 [emphasis added])4.
To be sure, the rerouting of cell phone communications
by third-party service providers to the point of execution by
4. As previously stated, the notion raised by the dissent
that the statute, as written, does not authorize eavesdropping on
cellular communications is meritless. Defendant never identified
any distinctions in the types of technology used in wiretapping
or in rerouting or redirecting communications as a basis for his
jurisdictional challenges. Nor did defendant make any claim that he
had a reasonable expectation of privacy in the telecommunications
providers’ use of their ow n technolog y in transferring the
communications point to point. The dissent’s extended discussion of
these unpreserved issues comparing early landline phones and digital
and wireless methods of transfers of telephonic communications and
the resulting analysis based on those distinctions (see dissenting
op at 10–13) is flawed. The definition of telephonic communications
under both state and federal law has remained the same because
the transfer of the human voice still remains the communication
to be intercepted. While both federal and state statutes account
for the evolving technology used by the providers to transfer the
communications, that evolving technology does not alter the essence
of an aural communication, which is clearly subject to interception
by eavesdropping.

16a
Appendix A
authorized law enforcement officers enables “interception”
as authorized by the warrant to occur, but is not itself the
court-ordered interception. Federal and state statutes
expressly recognize that telephonic communications
are aural transfers, in part, and are controlled by
service providers between two points (see e.g. Penal
Law § 250.00[3]). Anticipating the use of emerging
technologies in the commission of crime, both federal and
state statutes have recognized for decades the necessity
of third-party communications carriers to facilitate
court-ordered interception through switching technology
that enables the rerouting of calls. To that end, in 1994,
Congress enacted the Communications Assistance
for Law Enforcement Act (CALEA) to preserve the
government’s ability, pursuant to court order, to intercept
communications involving technologies such as digital and
wireless transmission modes (see U.S. Telecom Assn. v.
FCC, 227 F.3d 450, 454, 343 U.S. App. D.C. 278 [2000]).
Most significantly, the Act “[did] not alter the existing
legal framework for obtaining wiretap . . . authorization,”
as CALEA was intended to “preserve the status quo”
(id. at 455 [citation omitted]). Similarly, in New York,
pursuant to CPL 700.30 (9), an eavesdropping order may
direct communications service providers to “furnish the
applicant information, facilities, or technical assistance
necessary to accomplish the interception unobtrusively
and with a minimum of interference” to the service
customer. Contrary to the dissent’s conclusion, private
communication carriers do not “execute” the warrant
(dissenting op at 16). Indeed, our state statute mandates
that the court “shall not direct the service providers to
perform the intercept or use the premises of the service

17a
Appendix A
provider for such activity” (CPL 700.30 [9] [emphasis
added]). Plainly, under CALEA and CPL 700.30 (9), an
order directing the telecommunications carrier, which
alone controls the transfer of communications, to provide
technical assistance to investigators is not the equivalent
of an interception; rather, these statutes anticipate the
rerouting of digital communications by third parties
employing their up-to-date technology as a preparatory
step to effectuate the execution of eavesdropping warrants
by government agents.
When read in the context of this legislative history, the
statutory scheme supports our holding: the Kings County
Supreme Court Justice presiding in the jurisdiction where
defendant’s communications were overheard and accessed
and therefore intercepted by authorized law enforcement
agents had the authority to issue the warrants. No
language in the statutory scheme equates the place of
interception with the variable points where cell phones
or call participants are located.
Defendant nonetheless claims that a Kings County
Supreme Court Justice’s authority to grant eavesdropping
warrants is, at best, limited to “anywhere in the state,”
citing CPL 700.05(4)’s definition of a “justice” who
may issue a warrant “to authorize the interception of
oral communications occurring in a vehicle or wire
communications occurring over a telephone located in
a vehicle.” However, that part of CPL 700.05(4) has no
application to this case. CPL 700.05(4) mandates that
when interception of communications in a vehicle or over
a telephone located in a vehicle is to be made through a

18a
Appendix A
listening device that is “installed or connected” in the
vehicle, the eavesdropping “warrant may be executed
and such . . . communications may be intercepted
anywhere in the state.” Under this section, it is only when
communications occurring in a vehicle are intercepted
by an eavesdropping “device” that physically moves out
of New York along with the vehicle that the justice is
without authority to order extraterritorial interception
(see Peter Preiser, Practice Commentaries, McKinney’s
Cons Laws of NY, Book 11A, CPL 700.05). That portion of
section 700.05(4) does not relate to the place of execution
of a warrant involving the rerouting of communications
of a cell phone to a fixed wire room, nor does it conflict
with our conclusion that jurisdiction in this case is tied to
the place of authorized call interception. No devices were
physically connected or implanted in a phone or vehicle in
this case and no physical listening device employed by the
law enforcement officers traveled outside Kings County.
Thus, the vehicle-related language of CPL 700.05(4) is
inapposite to the resolution of this appeal.
III
Because “the New York eavesdropping statute was
intended to conform ‘State standards for court authorized
eavesdropping warrants with federal standards’” (People
v. McGrath, 46 N.Y.2d 12, 26, 385 N.E.2d 541, 412 N.Y.S.2d
801 [1978], quoting Governor’s Mem, L 1969, ch 1147, 1969
NY Legis Ann at 586), federal court decisions interpreting
the federal eavesdropping statute are useful as an aide
in interpreting provisions of the New York statute that
are patterned after the federal counterpart. However, as

19a
Appendix A
we explained in People v. Gallina (66 N.Y.2d 52, 56, 485
N.E.2d 216, 495 N.Y.S.2d 9 [1985]), when the language
of our state statute differs from the federal statute,
the distinction is considered “purposeful” and the plain
language of CPL article 700 controls.
T he ju r i sd ic t ion of fe der a l cou r t s t o i s sue
eavesdropping warrants is defined in 18 USC § 2518.
The federal statute—like our state statue—authorizes
federal judges of “competent jurisdiction” to issue such
an order “authorizing or approving interception of wire,
oral, or electronic communications within the territorial
jurisdiction of the court in which the judge is sitting. . . .”
(18 USC § 2518 [1] [emphasis added]). Beginning with
United States v. Rodriguez (968 F.2d 130 [2d Cir.1992]),
every federal Circuit Court interpreting the language
of section 2518 (1) has endorsed a “listening post” rule,
which focuses on the point of “interception” in analyzing
a court’s jurisdiction to issue such warrants (see United
States v. Jackson, 849 F.3d 540, 551-552 [3d Cir.2017]
[collecting federal Circuit Court cases]). In Rodriguez,
the Second Circuit concluded that “interception” occurred
at both the site of the target phone in New Jersey and
at the “place where the redirected contents [were] first
heard” in the Southern District of New York (968 F.2d at
136). The Rodriguez court thus employed “the listening
post rule” in holding that a warrant for such interception
was properly issued by a judge of the Southern District of
New York because the communications were overheard at
a location “within the territorial jurisdiction” of that court.
The Second Circuit concluded that the listening post rule
served the key goal of the eavesdropping statute, which
was to protect constitutional privacy interests from law

20a
Appendix A
enforcement abuse while providing technological tools to
advance designated criminal investigations when normal
investigative procedures are insufficient (id. at 136) 5 .
Other high courts have also followed the federal “listening
post rule,” concluding that, under their respective state
statutes modeled upon Title III, the location of cell phones
or call recipients does not drive the analysis, and execution
of a warrant occurs at the place of interception—even
where both parties to the calls or communications are
not within the state (see e.g. State v. Ates, 217 NJ 253,
273, 86 A.3d 710 [2014]; see also Davis v. State, 426 Md.
211, 226–227, 43 A.3d 1044 [2012] [collecting cases]) 6 .
5. 18 USC § 2518 (3) permits a federal judge to issue an
eavesdropping warrant for interception “outside” the territorial
jurisdiction of the court “but within the United States in the case of
a mobile interception device authorized by a Federal court within
such jurisdiction.” Defendant claims here that this section provides
federal judges, not state judges, with “express authority to issue
eavesdropping orders outside of their geographical jurisdiction,”
and concludes that this means that a state judge can administer
eavesdropping orders only “within its borders.” Determinatively,
defendant failed to preserve any issue of law for our review as to
whether the eavesdropping orders issued here involved installation
of a “mobile interception device” as defined in section 2518 (3). Thus,
while there is an apparent split in the federal Circuit Courts as to the
meaning of a “mobile interception device” (compare United States
v. Ramirez, 112 F.3d 849, 853 [7th Cir.1997] [“mobile interception
device” means “a device for intercepting mobile communications”]
with United States v. Dahda (853 F.3d 1101, 1112-1113 [10th Cir.2017]
[“mobile interception device” means “a listening device that is
mobile”], affd on other grounds ___ U.S. ___, 138 S. Ct. 1491, 200
L. Ed. 2d 842 [2018]), we do not consider whether the cellphone fits
the definition of a mobile interception device.
6. In Ates, the New Jersey Supreme Court rejected the
defendant’s arguments that New Jersey law enforcement officers

21a
Appendix A
Because both the federal and state statutes link a court’s
jurisdiction to issue warrants to the point of interception,
the decisions of federal and state courts interpreting their
similar statutory provisions support our conclusion here.
Given the ubiquity of cell phones and widespread
use of the Internet, this interpretation of our statutory
scheme, one in line with the federal “listening post rule,”
reaffirms that eavesdropping warrants are a critical tool
in investigating large-scale crime syndicates operating
in our state. Defendant’s “multiple plant” theory,
pursuant to which a court’s authority to issue a warrant
is dependent upon the location of targeted cell phones or
call participants, is not workable. Nor does defendant’s
proposal for inter-agency “cooperation” provide a solution.
Linking jurisdiction to the undetectable locations of
cell phones and creating dependence on outside law
enforcement agencies to investigate and prosecute very
serious crimes committed in this state is unreasonable. It
would result in a logistical scheme that leaves jurisdiction
in flux, creates multi-state wire rooms with diffuse
oversight responsibility and in many cases would eliminate
exceeded their jurisdiction in intercepting communications in cell
phone calls among participants that were out of state, “creat[ing] an
‘artificial connection’ to New Jersey” and that only a judge from the
defendant’s state of residence could authorize a wiretap. The court
explained that those arguments disregarded the fact that the New
Jersey Wiretap Act requires an actual nexus to the state before
an eavesdropping order can be issued, which is met by a predicate
finding of probable cause to believe that a designated offense under
New Jersey law is being committed and that communications about
criminal offenses occurring in that state may be obtained through
eavesdropping (id. at 268).

22a
Appendix A
eavesdropping as an investigative tool. More importantly,
centralized oversight by a single issuing court of competent
jurisdiction over the eavesdropping investigation of
designated New York crimes is critical to protect against
abuses in the invasion of an individual’s privacy in the
communications—the paramount constitutional concern—
and to ensure that any interception is necessary, properly
minimized, and promptly terminated in accordance with
constitutional safeguards (see People v. Rodriguez y Paz,
58 N.Y.2d 327, 335-336, 448 N.E.2d 102, 461 N.Y.S.2d
248 [1983]). That crucial oversight is impossible under
defendant’s proposed construct, which was certainly not
the legislature’s intent in carefully designing this State’s
eavesdropping statutes.
Defendant’s remaining claims that the warrants at
issue violated his constitutional rights as a California
resident, the separate sovereignty doctrine and other
constitutional rights of the state of California are without
merit.
Accordingly, the order of the Appellate Division should
be affirmed.
WILSON, J. (dissenting):
I agree with the majority that the issue is “discrete”:
does Criminal Procedure Law § 700.05 authorize a New
York court to issue a warrant commanding the diversion
into New York of a cellular telephone call between a
California resident who has never been to New York and
persons not resident or present in New York, so that New

23a
Appendix A
York officers may listen to it in New York? I conclude that
the statute does not1.
I
Joseph Schneider is a lifelong resident of California
who—prior to his arrest and extradition in June 2016—
had never set foot in New York. At one time, Mr. Schneider
operated his own gambling website. But beginning in April
2015 he began using facilities provided by a competitor
(and fellow Southern California resident) Gordon
Mitchnick, for which Mr. Schneider paid Mr. Mitchnick
$30,000 per month. Mr. Mitchnick managed a network of
“Master Agents” and “Agents” across the country and
supported the websites those agents used to place bets
on professional and collegiate sporting events. A team
in San Jose, Costa Rica provided technical support. The
operation required that Mr. Mitchnick and his associates
employ a range of strategies to conceal payments made
by customers and launder their profits.
1. As the majority notes, Mr. Schneider advanced no claim
under the Fourth Amendment of the U.S. Constitution or article I,
§ 12 of the New York Constitution. Further, I agree with the majority
that Mr. Schneider failed to challenge the jurisdiction of the Kings
County court to prosecute him, though we must be careful not to
confuse the question of the court’s jurisdiction to prosecute Mr.
Schneider based on evidence turned up through the wiretaps with
the court’s statutory authority to issue the wiretapping warrants
in the first place. Finally, I would also reject Mr. Schneider’s claims
framed under the Full Faith and Credit Clause and his explication
of California’s public policy, at least in the manner in which he has
presented those arguments.

24a
Appendix A
The principal evidence against Mr. Schneider
consisted of conversations recorded over the course of a
six-month wiretap investigation beginning in December
2015. But in the initial warrant application, the People
did not allege that Mr. Schneider had any contact with
the state of New York or that he had any customers
located in New York. Instead, they summarized four
conversations between Mr. Schneider and a New Jerseybased bookmaker, Patrick Deluise, as evidence that Mr.
Schneider operated a gambling website used by Mr.
Deluise. During one of the calls, Mr. Deluise informed
Mr. Schneider that he was in Florida: he did not mention
his location in the remaining three, and the warrant
application did not assert that Mr. Deluise was in New
York when any of those calls took place. The application
went on to describe Mr. Schneider’s business as “national
in scope,” noting that he had placed calls to numbers
in California, Arkansas, Colorado, Florida, Michigan,
Hawaii and Nevada and pointing to three incoming calls
from Costa Rica, where online gambling is legal. New
York was not among the states listed, and the warrant
application contained no suggestion that Mr. Schneider
had communicated by phone with anyone located in New
York. Nevertheless, Supreme Court issued the warrant
and the wiretap commenced.
Over the course of six-months, investigators extensively
documented Mr. Schneider’s conversations with agents
and customers in California, Nevada, Michigan and
Costa Rica. But they failed to turn up any evidence that
Mr. Schneider made or received calls to or from anyone
located in Kings County. Indeed, during that period Mr.

25a
Appendix A
Schneider made no calls to anyone in New York, and
received just one, from a number registered to an address
in Kingston 2 . The People do not assert that any other
evidence uncovered during their lengthy investigation
demonstrated that Mr. Schneider had contacts with
persons located in New York.
II
Although Mr. Schneider advances no argument
under article I, § 12 of the New York Constitution, its
explicit protections against unreasonable interception
of telephone communication—absent from the Fourth
Amendment—are important in interpreting Article 700
of the Criminal Procedure Law. The majority apparently
agrees, by acknowledging that New York’s constitutional
protections for the privacy of electronic communications
exceed what the Fourth Amendment provides, but draws
from that acknowledgement the odd conclusion that New
York’s constitution was amended in 1938 to “authorize”
eavesdropping as an investigative tool (majority op at
6). That claim mischaracterizes the explicit language
of article I, § 12 and misinterprets the intention of the
delegates who authored it.
In 1928, the constitutionality of wiretapping was
presented to the U.S. Supreme Court, which held that
2. Although the majority highlights the suppression court’s
finding that other defendants made calls to New York from California
(majority op at 10 n. 3), the prosecution’s warrant applications
failed to demonstrate that Mr. Schneider was communicating with
individuals in New York.

26a
Appendix A
the Fourth Amendment did not prohibit or constrain
wiretapping so long as the wiretapping was performed
outside of the target’s home (Olmstead v. United States,
277 U.S. 438, 465, 48 S. Ct. 564, 72 L. Ed. 944 [1928]).
Thus, with no reason to suspect anyone of a crime, the
police could climb a telephone pole, install a wiretap,
listen, and use the evidence in criminal prosecutions. Or,
if allowed by the telephone company, they could sit in a
chair at the company’s offices and do the same. Olmstead
was met with swift public condemnation (see, e.g., Forrest
Revere Black, An Ill-Starred Prohibition Case, 18 Geo LJ
120 [1930]; Osmond K. Fraenkel, Recent Developments in
the Law of Search and Seizure, 13 Minn L Rev 1 [1928];
Editorial, Government Lawbreaking, NY Times, June 6,
1928 at 24 [“Prohibition, having bred crimes innumerable,
has succeeded in making the Government the instigator,
abettor and accomplice of crime. It has now made universal
snooping possible”]). 3
3. In an about-face, the U.S. Supreme Court thereafter held
that the Communication Act of 1934, which provided that “no
person” may divulge an intercepted telephone communication to
“any person,” prohibited the use of wiretapped information in both
federal (Nardone v. United States, 302 U.S. 379, 58 S. Ct. 275, 82 L.
Ed. 314 [1937]) and state (Weiss v. United States, 308 U.S. 321, 60 S.
Ct. 269, 84 L. Ed. 298 [1939]) prosecutions. The managers of the bill
that became the 1934 Communications Act “repeatedly declared that
it was designed solely to transfer jurisdiction over radio, telegraph,
and telephone to a new agency, the Federal Communications
Commission, and that ‘the bill as a whole does not change existing
law’” (Alan F. Westin, The Wire-Tapping Problem: An Analysis
and a Legislative Proposal, 52 Colum L Rev 165, 174 [1952]). Thus,
“the Nardone decision was generally regarded as a bit of judicial
legislation, a policy decision by the Court that the increased need to

27a
Appendix A
At the New York Constitutional Convention of 1938,
the delegates added article I, § 12 to the Constitution.
Its first paragraph copies the U.S. Constitution’s Fourth
Amendment verbatim, but the amendment added a second
paragraph not found in the Federal Constitution:
“The right of the people to be secure against
unreasonable interception of telephone and
telegraph communications shall not be violated,
and ex parte orders or warrants shall issue
only upon oath or affirmation that there is
reasonable ground to believe that evidence of
crime may be thus obtained, and identifying
the particular means of communication, and
particularly describing the person or persons
whose communications are to be intercepted
and the purpose thereof.”
This second parag raph was a direct response to
Olmstead. In a message to the convention, Governor
Lehman emphasized the need to protect scrupulously
against wiretapping, citing to Justice Brandeis’ dissent
in Olmstead for the proposition that “writs of assistance
and general warrants are but puny instruments of tyranny
oppression when compared with wire tapping” (Message
of Gov. Lehman, 1 Revised Record of the Constitutional
Convention of the State of New York at 339, quoting 277
U.S. at 476 [Brandeis J., dissenting]; see also Speech of
Delegate Thomas B. Dyett, 1 Rev Rec at 505, quoting 277
curb a dangerously prevalent practice justified a somewhat liberal
remolding of a statutory section” (id. at 175).

28a
Appendix A
U.S. at 474–475; Speech of Delegate Philip Halpern, 1 Rev
Rec at 550). Article I, § 12 of the New York Constitution
does not “authorize” wiretapping: rather, it expresses our
State’s fundamental distrust of the use of wiretapping
and intention strictly to limit its availability.
The scope of Article 700 must be understood with
that background in mind. In 1967, the Supreme Court
overruled Olmstead (see Katz v. United States, 389 U.S.
347, 353, 88 S. Ct. 507, 19 L. Ed. 2d 576 [1967]), and held
that New York’s eavesdropping statute failed to require
that warrants “particularly [describe] the place to be
searched, and the persons or things to be seized” as
required by the Fourth Amendment (Berger v. New York,
388 U.S. 41, 55, 87 S. Ct. 1873, 18 L. Ed. 2d 1040 [1967]). In
response, Congress passed Title III of the Omnibus Crime
Control and Safe Streets Act of 1968 (“OCCSSA”), which
established minimum federal statutory requirements for
applications for eavesdropping warrants and the orders
themselves (see 18 USC § 2518). Title III requires states
to provide at least the protections it specifies but does
permit states to adopt more restrictive measures. As
Chief Judge Kaye explained: “Beyond the question of
authority, however, stands our strong public policy of
protecting citizens against the insidiousness of electronic
surveillance by both governmental agents and private
individuals. New York State has, therefore, responded
to the problems raised by electronic surveillance with
greater protection than is conferred under Federal law,
and continues to assert this strong public policy, through
evolving legislation, as technology advances” (People
v. Capolongo, 85 N.Y.2d 151, 160, 647 N.E.2d 1286, 623
N.Y.S.2d 778 [1995]).

29a
Appendix A
Given the protections enshrined in the Constitution
and enacted by statute, our “strong public policy” requires
that we interpret our eavesdropping statutes narrowly
especially where—as here—the statute is silent on
the question before us (id. at 162–163 [applying notice
provisions of Article 700 to introduction of foreign wiretap
evidence where statutory scheme is silent on the rules
governing the admission of such evidence]). Likewise,
nothing in Article 700’s legislative history suggests any
contemplation of the narrow issue presented here: whether
a New York court can issue a warrant requiring a telephone
company to divert a signal into New York when neither
party to the call is located in New York or resides in New
York. Contrary to the majority’s assertion (majority op at
14 n. 4), I completely agree that CPL article 700 authorizes
a New York court to issue an eavesdropping warrant when
the warrant application shows that a cellular telephone line
is being used to communicate to or from New York; I am
puzzled by what portion of my “rather absurd hypothesis”
would have caused the majority to think otherwise.
III
The easiest way to expose the majority’s error is to
remove the verbiage and line up the opinion’s substantive
points: (1) New York has longstanding constitutional
protections specifically for telephone communications
absent in the federal constitution (majority op at 6); (2)
because of “New York’s strong public policy” in protecting
privacy, “strict compliance with CPL article 700” is
required (id. at 7–8); (3) resolution of Mr. Schneider’s
claim turns on the word “executed”, “a term that is not

30a
Appendix A
defined” (id. at 10); and (4) “the court’s jurisdiction to issue
eavesdropping warrants is not boundless, but is limited
by the rules of geographical jurisdiction set forth in our
State Constitution and CPL article 20” (id. at 8). Stripped
bare, the majority claims that because New York has a
long history of protecting privacy rights in telephone
communications and the legislature did not say what it
meant by “executed,” the legislature meant to grant New
York courts the ability to issue warrants to listen in on any
cell phone calls between anyone in the United States, or
perhaps in the world, so long as a U.S. telephone carrier
can divert the call to New York. To the contrary, the
obvious conclusion from those points is that we should not
interpret an undefined term to permit New York courts to
authorize the issuance of warrants requiring the diversion
into New York of telephone calls between people with no
connection to New York and which calls neither originated
nor terminated in New York.
The history of New York’s protections of privacy,
both constitutional and statutory, establishes the desire
to afford electronic communication at least as much
protection as is provided for searches and seizures
of tangible objects. Instead, the majority grants law
enforcement an unlimited geographic reach not available
for searches and seizures of physical property. For
example, police officers must execute warrants in “the
county of issuance or an adjoining county” or in another
county within the state “if (a) his geographical area of
employment embraces the entire county of issuance or
(b) he is a member of the police department or force of a
city located in such county of issuance” (CPL 690.25 [2]).

31a
Appendix A
Similarly, police officers may not make arrests outside
their geographic jurisdiction unless assisted by officers
in the jurisdiction where the arrest is made (CPL 120.60;
see also People v. Johnson, 303 AD2d 903, 905-906, 757
N.Y.S.2d 349 [3d Dept. 2003]). Nor does our law permit
law enforcement agents from another state to conduct a
search under either a federal or out-of-state warrant (see
People v. La Fontaine, 92 N.Y.2d 470, 705 N.E.2d 663, 682
N.Y.S.2d 671 [1998]). Those rules reflect the fundamental
importance of territoriality in the authorization of
searches and seizures. If New York officers have probable
cause to believe that the home of a Californian contains
evidence relevant to the prosecution of New York crimes,
they must—and do—obtain a warrant from a California
court. How can we infer such a dramatic change from a
word the legislature did not define?
IV
Even were we to ignore New York’s longstanding
commitment to the privacy of electronic communications
and look at the statute in a vacuum (which is not what
the majority advocates [see majority op at 6]), I could
not arrive at the majority’s conclusion. I start, as does
the majority, with the fact that the statute is silent on
the meaning of “executed” (id. at 10). CPL 700.05(4)
authorizes the issuance of an “eavesdropping warrant”
by Supreme Court Justices “of the judicial district in
which the eavesdropping warrant is to be executed.” An
“’[e]avesdropping warrant’ means an order of a justice
authorizing or approving eavesdropping” (CPL 700.05[2]),
and “’[e]avesdropping’ means ‘wiretapping,’ ‘mechanical

32a
Appendix A
overhearing of conversation,’ or the ‘intercepting or
accessing of an electronic communication’, as those
terms are defined in section 250.00 of the penal law”
(CPL 700.05[1]). Thus, CPL 700.05 permits the issuance
of an eavesdropping warrant for three different types of
surveillance.
Penal Law § 250.00 carefully differentiates between
“wiretapping” and “intercepting or accessing of an
electronic communication” in a way that is crucial to
understanding what “execution” of a warrant means 4 .
Telephonic communications are “wiretapped,” defined
as the “intentional overhearing or recording of a
telephonic or telegraphic communication by a person
other than a sender or receiver thereof, without the
consent of either the sender or receiver, by means of any
instrument, device or equipment” (PL § 250.00[1]). In
contrast, electronic communications are “intercepted” or
4. “Wiretapping” is “the intentional overhearing or recording
of a telephonic or telegraphic communication by a person other than
a sender or receiver thereof . . . by means of any instrument, device
or equipment.” A “telephonic communication” means “any aural
transfer made in whole or in part through the use of facilities for the
transmission of communications by the aid of wire, cable or other
like connection between the point of origin and the point of reception
(including the use of such connection in a switching station)” (PL
§ 250.00[3]). “Aural transfer” is in turn defined as “a transfer
containing the human voice at any point between and including
the point of origin and the point of reception” (PL § 250.00[4]).
“Electronic communication” is defined as “any transfer of signs,
signals, writing, images, sounds, data, or intelligence of any nature
transmitted in whole or in part by a wire, radio, electromagnetic,
photoelectronic or photo-optical system” (PL § 250.00[5]).

33a
Appendix A
“accessed” through the “intentional acquiring, receiving,
collecting, overhearing, or recording by means of any
instrument, device or equipment” (PL § 250.00[6]). Thus,
the legislature authorized eavesdropping warrants that
“intercepted or accessed” electronic communications but
did not use those words when authorizing eavesdropping
warrants of telephonic communications 5 . Telephonic
5. The majority contends that this argument is “meritless,”
pointing to CPL 700.05(3)’s definition of “intercepted communication,”
which includes a) telephonic or telegraphic communications, b)
conversations or discussions intentionally overheard and recorded, and
c) “an electronic communication which was intentionally intercepted
or accessed.” However, “intercepted communication” does not bear on
the meaning of “executed” in CPL 700.05[4]. Rather, it is an omnibus
term used throughout Article 700 to refer to all three types of
communications that may be the targets of eavesdropping warrants
(see CPL 700.35[3] [“In the event an intercepted communication is
in code or foreign language, and the services of an expert in that
foreign language or code cannot reasonably be obtained during the
interception period, where the warrant so authorizes and in manner
specified therein, the minimization required by subdivision seven
of section 700.30 of this article may be accomplished as soon as
practicable after such interception”] [emphasis added]; CPL 700.50
[3] [“Within a reasonable time written notice of the fact and date
of the issuance of the eavesdropping or video surveillance warrant
must be served upon the person named in the warrant and other
such other parties to the intercepted communications or subjects of
the video surveillance as the justice may determine in his discretion
is in the interest of justice. The justice may in his discretion make
available to such person or his counsel for inspection such portions of
the intercepted communications or video surveillance”] [emphasis
added]; CPL 700.65 [1] [“Any law enforcement officer who, by any
means authorized by this article, has obtained knowledge of the
contents of any intercepted communication or video surveillance,
or evidence derived therefrom, may disclose such contents to

34a
Appendix A
communications are explicitly excluded from the definition
of electronic communication (PL § 250.00[5][a]), further
evidencing the legislature’s determination to treat those
two forms of communication differently. The Bill Jacket
for the 1988 amendments to CPL Article 700 confirms the
legislature’s explicit differentiation between wiretaps of
telephonic communication and the surveillance of other
types of communications (Senate Introducer’s Mem in
Support, Bill Jacket, L 1988, ch 744 at 8).
Those distinctions ref lect the manner in which
wiretaps were carried out prior to the advent of cell
phones. Historically, telephonic communication — and
hence wiretapping — traveled point-to-point through vast
networks of wires or cables. Law enforcement could simply
splice the wire servicing the phone to be monitored with
a wire terminating at the law enforcement agency (Micah
Sherr et al., Signaling Vulnerabilities in Wiretapping
Systems, 3 IEEE Security & Privacy 13, 14 [2005]). The
wires could be joined either between the telephone and
the first junction box or at a local telephone exchange
(James G. Carr et al, Law of Electronic Surveillance § 1.2
[Oct. 2020 Update]). Thus, wiretaps were carried out in
close geographic proximity to the intended target. The
definition of telephonic communication provided in Penal
another law enforcement officer to the extent that such disclosure
is appropriate to the proper performance of the official duties of
the officer making or receiving the disclosure”] [emphasis added];
CPL 700.70 [“The contents of any intercepted communication, or
evidence derived therefrom, may not be received in evidence or
otherwise disclosed upon a trial unless the people, within fifteen
days after arraignment and before the commencement of the trial,
furnish the defendant with a copy of the eavesdropping warrant”]
[emphasis added]).

35a
Appendix A
Law § 250.00 (3), which emphasizes the transmission
of communication over wires, cables or other similar
connections, indicates that the Legislature expected that
overhearing or recording telephone calls would require
accessing wires, regardless of the device used. It follows
that the Legislature would have assumed that wiretaps—
the physical accessing of the signal—would be carried
out within the jurisdiction of the law enforcement agency
executing the warrant, because a New York officer could
not obtain a warrant from a New York court to travel to
California and splice a wire there.
However, intercepting a call placed from a cell phone
requires very different technology. Cell phones do not
operate solely through the use of wires. Although wires
and cables carry the cellular signal through some points
of its travel, substantial portions of the transmission—
including the initial transmission by the caller and the
final receipt by the recipient—are wireless. A cell phone
converts the voice of the caller into an encoded electrical
signal and transmits it to a local cell phone tower via
the electromagnetic spectrum (Rich Mazzola, How Do
Cell Phones Work? A Story of Physics, Towers, and the
Government, Medium [Oct. 7, 2015], https://medium.com/
swlh/richmazzola-how-do-cellphones-work-a-story-ofphysics-towers-and-the-government-8369aa7226b1). The
tower then directs the signal to its intended destination,
where the receiving cell phone decodes the signal, allowing
the receiver to hear the sender’s voice (id). Wiretaps of
cellular phone calls are now carried out by telephone
companies rather than law enforcement: the company
decodes the signaling information and separates out the
call audio to a new channel, which is then transmitted

36a
Appendix A
to the law enforcement agency (Sherr et al. at 15). That
process does not require a physical connection to the
tapped line (id). Therefore, as a technological matter, a
wiretap of a call made to or from a cell phone need not
occur in territorial proximity to the intended target.
The majority claims that the Legislature’s 1988
amendments to Article 700 anticipated the rise of new
technology (majority op at 12–13). That is correct. The
legislature made an explicit definitional choice, by which
all “telephonic communications”—both conventional and
cellular—were expressly excluded from the definition of
“electronic communication.” Because even calls placed
to and from a cellular telephone contain aural transfers
“made in whole or part through the use of facilities
for the transmission of communications by the aid of
wire, cable or other like connection” and “electronic
communication” “does not include[] any telephonic or
telegraphic communication” (PL § 250.00[5][a]), the
majority’s reliance on citations to the legislative history
and commentators relating to the 1988 amendments is
not illuminating. Indisputably, the legislature added a
definition of “electronic communication” distinct from
telephonic communication—for example, to capture
“various new forms of electronic communication” (e.g.,
emails, FTP transfers, SMS messages) that are not
“aural”—but its intention to permit eavesdropping of
those “electronic communications” does not bear on the
territorial limitations for the execution of wiretapping
warrants.6
6. The majority cites McKinney’s Practice Commentaries
for Penal Law § 250.05 to support its view that “the legislature
clearly intended to continue the availability of wiretapping to

37a
Appendix A
The only new telephone technology expressly
addressed by the 1988 amendments was car phones,
not the handheld mobile phones ubiquitous today 7.
The legislature’s treatment of car phones in the 1988
amendments cannot be reconciled with the majority’s
position. According to the majority, the 1988 amendments
permit any court in New York state to authorize the
be accomplished by the overhearing of ‘cellular and cordless
communications’” (majority op at 13). However, the quoted language
refers to the fact that under New York law “people are entitled to
privacy in their telephonic communications, even if a portion of
the conversation is transmitted by radio” (William C. Donnino,
Practice Commentaries, McKinney’s Cons Laws of NY, Book 11A,
Penal Law § 250.05). McKinney’s, in turn, cites to People v. Fata,
a 1990 case in which the Second Department concluded that the
warrantless surveillance of cordless telephone conversations was
illegal (159 AD2d 180, 185, 559 N.Y.S.2d 348 [2d Dept. 1990]). Fata
references the 1988 amendments to distinguish between federal law
(which explicitly excludes cordless telephones from its definition
of wire communications that may not be intentionally intercepted
without a warrant) and state law (which does not) (id). From that
fact—and the broader protections afforded New York state citizens
under our constitution—Fata concluded that “the Legislature
intended to provide greater protection for the privacy of telephone
communications than that available under the Federal eavesdropping
statute” (id).

7. The legislature’s focus on car phones is understandable. In
the late 1980s, hand-held mobile phones were a high-end luxury good
used by less than one percent of Americans (see Michael Decourcy
Hinds, Consumer’s World; Mobile Phones, as Prices Drop, Aren’t
Just for Work Anymore, NY Times [June 10, 1989], https://www.
nytimes.com/1989/06/10/style/consumer-s-world-mobile-phones-asprices-drop-aren-t-just-for-work-anymore.html). In contrast, car
phones were an increasingly common consumer good (id).

38a
Appendix A
wiretap of a telephone call, diverted from anywhere in the
country, so long as the police listen to the call somewhere
within the court’s judicial district. If that were so, the
legislature would have had no need to provide that, for
“wire communications occurring over a telephone located
in a vehicle . . . such warrant may be executed and such
oral or wire communications may be intercepted anywhere
in the state.” The legislature’s specific statewide expansion
of the interception of telephone calls made over car phones
only is nonsensical under the majority’s interpretation,
because under the majority’s reading of the statute, calls
from car phones could be diverted to anywhere in the state
even without the car phone provision. Thus, the majority’s
interpretation of the statute should be rejected under our
settled rules of construction (see Majewski v. BroadalbinPerth Cent. School Dist., 91 N.Y.2d 577, 587, 696 N.E.2d
978, 673 N.Y.S.2d 966 [1998]; Matter of OnBank & Trust
Co., 90 N.Y.2d 725, 731, 688 N.E.2d 245, 665 N.Y.S.2d 389
[1997; Roosevelt Raceway, Inc. v. Monaghan, 9 N.Y.2d
293, 305-306, 174 N.E.2d 71, 213 N.Y.S.2d 729 [1961]). 8
Furthermore, simply as a matter of commonsense,
when a signal is diverted to bring it into New York, it
is done so by command of a warrant. If the warrant is
8. Although I place little or no weight on failed legislative
attempts, I note that in the 2001-2002 legislative term, S.B. 5793
was introduced; it would have authorized “roving interceptions” of
telephone communications by eliminating the “specification of the
facilities from which, or the place where, the communication is to
be intercepted” in cases where the People could show that those
limitations were “not practical.” Had that bill’s sponsor shared the
majority’s view, the bill would never have been introduced.

39a
Appendix A
never executed, the signal will not be diverted; if the
signal is diverted, it is diverted solely by execution of the
warrant. The fact that the telephone company, rather
than the police, conduct the physical diversion is of no
legal importance. Private actors working at the behest
of law enforcement are treated as law enforcement (see
People v. Esposito, 37 N.Y.2d 156, 160, 332 N.E.2d 863,
371 N.Y.S.2d 681 [1975]). Where a telephone company
acting pursuant to a warrant diverts an out-of-jurisdiction
telephone call, it has executed the warrant at a point
outside the judicial district in which the issuing court sits,
which Article 700 does not allow. The fact that it is later
listened to within the judicial district of the issuing court
does not erase the warrant’s initial out-of-jurisdiction
execution (cf. United States v. Rodriguez, 968 F.2d 130,
144 [2d Cir.1992] [Meskill J., concurring] [“The contents
of the Imperio Café communications were acquired by
law enforcement officials when they were diverted in New
Jersey. In Manhattan the previously acquired contents
were transformed into sound, but, because they were
already within the control of law enforcement agents, they
were not newly ‘acquired.’ I do not believe the contents of
a communication become acquired anew each time they
are transformed into a different medium”]).
In sum, the meaning of the term “execute” in CPL
700.05(4) must be understood in the relevant historical
context. At the time of the statute’s enactment, wiretaps
on telephonic communications would have been carried
out by law enforcement physically tapping lines in close
geographical proximity to the targeted subject. The
legislature could not have imagined that a warrant could

40a
Appendix A
be “executed” simply by instructing a nationwide cellular
phone company to redirect into New York an out-of-state
electronic signal that never would have entered New York,
containing conversation between two people not located
in New York. The majority can point to nothing in the
legislative history that suggests the legislature intended
to grant New York courts the ability to divert purely outof-state voice calls into New York state by issuance of a
warrant.
The scattershot of arguments offered by the majority
for its expansive interpretation of “execute” do not
bear on the proper interpretation of the term. The
various citations to the legislative history of the 1988
amendments and commentators’ views thereof stand for
the unremarkable proposition that, by defining “electronic
communication” and subjecting such communications
to eavesdropping, the legislature took steps “designed
to keep pace with emerging technologies” (majority op
at 12–13). That is precisely the point: the legislature
understood that new technologies, such as email or FTP
transfers, could be subjected to warranted surveillance.
It permitted those defined “electronic communications” to
be “intercepted or accessed,” but purposefully excluded
“telephonic communications” from that provision. The
statute does not authorize courts to issue warrants that
“intercept” or “access” telephone calls. Instead, it used a
word with a settled territorial component—“execution:” of
a warrant—to limit a court’s authority to seize telephone
calls.

41a
Appendix A
V
Neither the federal nor foreign state caselaw relied
on by the majority supports its position. I discuss each
in turn.
A
The majority’s reliance on the federal “listening post”
rule says nothing about how to interpret the CPL. There
is no suggestion that the CPL’s definition of wiretapping
or rules relating to wiretapping are derived from federal
law, or that the choice of the word “execute”—which the
majority contends is the key to New York’s statute—was
derived in any way from a federal statute or caselaw.
Indeed, the federal statutory scheme is quite different.
The federal statute, 18 USC § 2518 (3), does not use the
word “execute” at all. Instead, it provides that a “judge
may enter an ex parte order authorizing or approving
interception of wire, oral, or electronic communications
within the territorial jurisdiction of the court in which the
judge is sitting.” Interception is defined as “the aural or
other acquisition of the contents of any wire, electronic,
or oral communication through the use of any electronic,
mechanical or other device” (18 USC § 2510 [4]). Thus, the
federal statute lumps together, without distinction, voice
and all other electronic communication regardless of the
type of means used to transmit the signal, and authorizes
the “interception” of all such information through the use
of any type of device, whereas New York differentiates
between voice communications that use wire or cable for
any part of the transmission (which includes cellular phone

42a
Appendix A
calls) from the transmission of other types of electronic
communication, with different rules applying to each, as
explained supra at 10–11.
Moreover, when it comes to the ability of a court to
issue a warrant to divert an out-of-jurisdiction call into a
jurisdiction, federal and state courts are quite different.
Because use of wires (or radio frequencies allocated by
the federal government) necessarily implicates interstate
commerce, federal courts have nationwide jurisdiction.
It is perfectly understandable that federal statutes,
and federal courts’ interpretation of those statutes,
may have fewer concerns about the ability of a federal
court to issue an order diverting a call using facilities of
interstate commerce to a listening post anywhere in the
United States. Not so with state courts: query whether
New Yorkers would be content if a Mississippi court
authorized the wiretapping of calls purely between New
York residents who have never set foot in Mississippi.9
Furthermore, there is no view of the OCCSSA
under which states courts may authorize more expansive
eavesdropping than federal courts. Whether a federal
district court could authorize the wiretapping of a cellular
phone conversation that neither originated nor terminated
9. The majority’s reliance on the Communications Assistance
for Law Enforcement Act (CALEA) and CPL 700.30 (9) is misplaced
(majority op at 14–15). Both CALEA and CPL 700.30 (9) require
telecommunications carriers to assist in the seizure of telephonic
and electronic communications authorized by a proper warrant, but
neither statute expands or contracts the territorial jurisdiction of
courts, whether state or federal, to issue warrants.

43a
Appendix A
within the judicial district in which the issuing federal
court sits is unsettled, as I explain below. For that reason
alone, we should be hesitant to grant New York courts the
authority to grant wiretapping warrants for telephone
conversations that neither originate nor terminate in
New York.
The majority’s reliance on United States v. Rodriguez
(968 F.2d 130 [2d Cir.1992]), is misplaced, because it did
not involve the wiretapping of purely extraterritorial
phone calls nor the wiretapping of cellular phone calls.
In Rodriguez, law enforcement in the Southern District
of New York obtained the wiretap warrant in question in
connection with an investigation of a crack organization
based in the Hunts Point section of the Bronx (id. at 133).
The organization’s operations extended to a restaurant
in New Jersey (id. at 133–134). In connection with the
investigation, wiretaps were placed on four telephones
at the New Jersey restaurant and the apartment of one
of the conspirators in the Bronx (id. at 134). The calls
were monitored at the Drug Enforcement Administration
headquarters in the Southern District (id. at 135). The
warrant application thus facially established that calls
made from the New Jersey phone numbers were being
made to a telephone in New York, and a telephone in New
York was being used in furtherance of the crack operation.
Those calls were between conventional land lines, carried
by wire or cable, which necessarily physically traversed
New York. Here, in contrast, the warrant application did not
establish probable cause (or, indeed, any reason to believe)
that Mr. Schneider’s phone was making or receiving
calls to or from New York, and the calls would not have
entered New York but for their seizure pursuant to the

44a
Appendix A
warrant10. It is also important to note that in Rodriguez,
Judge Meskill separately concurred. He emphasized
his disagreement “with the majority’s treatment of the
wiretap issue, which effectively repeals 18 USC § 2518
(3)’s requirement that a judge may only enter an order
authorizing the interception of communications ‘within
the territorial jurisdiction of the court in which the judge
is sitting’” (id. at 143–44). As he explained:
“I cannot join the majority in holding that
the unilateral decision of law enforcement
agents as to where to set up their listening
post can grant authority to a judge in any
jurisdiction to authorize a phone tap in
any other jurisdiction. . . .The heart of the
definition of ‘intercept’ in 18 U.S.C. § 2510(4)
is the ‘acquisition of the contents’ of a
communication. The contents of the Imperio
Cafe communications were acquired by law
enforcement officials when they were diverted
in New Jersey” (id. at 144).
10. The Second Circuit interpreted the federal definition of
“interception” to mean both the location where “the contents of a
wire communication are captured or redirected” and “where the
redirected contents are first heard” (968 F.2d at 135–136). Thus,
it read the federal statute to authorize the diversion of the signal
“through the use of any electronic, mechanical or other device” as
explicit statutory authority to order the out-of-state wiretaps on the
New Jersey phones. New York law contains no analogous provision
for telephone wiretapping and, indeed, uses “interception” when
authorizing eavesdropping of electronic communications only, not
telephonic communications.

45a
Appendix A
In United States v. Ramirez (112 F.3d 849 [7th Cir.1997]),
the Seventh Circuit considered whether a federal
district court could issue an eavesdropping warrant for
a cellular phone call where the communication neither
originated nor terminated within the judicial district of
the issuing court. It concluded that the 1986 Electronics
Communications Privacy Act, which authorized federal—
but not state— courts to intercept “w ire, oral, or
electronic communications . . . outside [the district court’s]
jurisdiction but within the United States in the case of a
mobile interception device” allowed a federal district court
to intercept cellular telephone signals anywhere in the
United States (id. at 853). It interpreted the phrase “mobile
communication device” to mean “a device for intercepting
mobile communications,” not “the irrelevant mobility or
stationarity of the device” (id). By relying on the “mobile
communication device” provision, which applies only to
federal courts, the Seventh Circuit implicitly decided
that without that provision, a federal court could not issue
eavesdropping warrants for communications occurring
solely outside its judicial district. Indeed, the “mobile
communication device” amendment expanding jurisdiction
beyond the federal court’s judicial district would be
meaningless if courts could issue extra-jurisdictional
warrants without it. Because that “mobile communication
device” expansion was provided for federal courts only,
both Ramirez and the ECPA suggest that state courts do
not have the ability to issue eavesdropping warrants for
wholly out-of-state communications.
More recently, the Fifth Circuit, in United States
v. North (728 F.3d 429 [5th Cir.2013]) issued a decision
holding that federal district courts may not divert cellular

46a
Appendix A
telephone calls into their jurisdictions and establish
listening posts there, but then withdrew the decision and
substituted it with a decision suppressing the wiretap
on the ground of lack of minimization (735 F.3d 212,
216 [5th Cir.2013]). However, the concurring opinion of
Judge DeMoss sets out the rationale of the withdrawn
opinion, which rejects the Seventh Circuit’s construction
of “mobile communication device,” concluding that it refers
to interception devices that themselves are mobile—not
the interception of mobile phone communications (id. at
217–18).
Subsequently, in United States v. Glover (736 F.3d
509, 407 U.S. App. D.C. 189 [DC Cir.2013]), the court
rejected the Seventh Circuit’s interpretation of “mobile
communication device,” noting that “[a]ccording to a
Senate Judiciary Committee report, the objective of the
language was to ensure that warrants remain effective
in the event a target vehicle is moved out of the issuing
judge’s jurisdiction after a warrant is issued, but before
a surveillance device can be placed in the vehicle” (id. at
514). Most recently, in United States v. Dahda (853 F.3d
1101 [10th Cir.2017], affd on other grounds, 138 S. Ct.
1491, 200 L. Ed. 2d 842 [2018]), the Tenth Circuit likewise
concluded that “mobile communication device” meant a
device that itself was mobile (id. at 1114 [“For example,
some scholars point to small mobile devices such as ‘IMSI
catchers,’ which are capable of intercepting the content
from cell phone calls” (id. at 1113 n. 4)]).
My point is not that the law is settled as to whether
a federal court could issue an eavesdropping warrant to
divert a purely out-of-state conversation into the judicial

47a
Appendix A
district in which the court sits, where the warrant fails to
establish that the warrant’s target had ever made calls to
that district or set foot in that district. To the contrary,
my point is that the federal law is unsettled and, however
great the federal jurisdiction might be, the jurisdiction of
a state to authorize eavesdropping of purely out-of-state
phone conversations can be no greater, and is likely lesser.
B
Additionally, the majority points to the adoption
of the listening post rule by two other states’ high
courts. Those states, however, have markedly different
statutory provisions from New York’s and different state
constitutional backdrops against which both legislative
and judicial decisions should be framed. The majority
cites to the New Jersey high court’s decision in State
v. Ates (217 NJ 253, 271, 86 A.3d 710 [2014]) and that of
Maryland in Davis v. State (426 Md. 211, 218, 43 A.3d 1044
[2012]). The New Jersey wiretapping statute provides
“[a]n order authorizing the interception of a wire,
electronic or oral communication may be executed at
any point of interception within the jurisdiction of an
investigative or law enforcement officer executing the
order,” and defines the “point of interception” as “the
site at which the investigative or law enforcement officer
is located at the time the interception is made” (NJ Stat
Ann 2A:156A-12; NJ Stat Ann 2A:156A-2(v)). New York
uses “execution” of the warrant instead of “interception”
of the signal and lacks New Jersey’s statutory direction
that the point of interception is where the listening officer
is located.

48a
Appendix A
Maryland’s wiretapping law supports my position, not
the majority’s. Until Maryland’s legislature amended its
wiretapping law in 1991, eavesdropping warrants were
limited to calls occurring “within the jurisdiction of a
particular circuit court”; the 1991 amendment “obviated
the need for law enforcement agents to obtain multiple ex
parte orders for each jurisdiction where a mobile phone
might be located and allowed them to apply for one ex
parte order in the jurisdiction where the ‘base station’
was located” (Davis, 426 Md. at 222). Even so, in Perry
v. State (357 Md. 37, 741 A.2d 1162 [1999)]) and Mustafa
v. State (323 Md. 65, 591 A.2d 481 [1991]), Maryland’s
Court of Appeals held that communications intercepted in
another state are inadmissible at trial if they would violate
the Maryland wiretap statute had they been intercepted
in Maryland. In response, the legislature amended its law
once again to authorize “certain out-of-state interceptions”
(426 Md. at 222, citing 2001 Md. Laws 370). Then, in 2002,
the legislature again amended Maryland’s wiretapping
statute to broaden its reach. Only in view of the repeated
legislative efforts to expand the reach of its courts, and
Maryland’s use of the word “interception” which copied
the federal statutory authorization, did the Maryland
Supreme Court conclude that its statute should be read to
reach extraterritorially. In contrast, New York’s statutory
scheme is different and evidences neither the words nor
the legislative history that would render comparison to
New Jersey or Maryland apposite.

49a
Appendix A
VI
Last, in a pronouncement having nothing to do with
the statutory language or legislative intent, the majority
proposes a fusillade of policy justifications in support of
its position. It is worth quoting them just to have them
in mind:
• It is “not workable” if “a court’s
authority to issue a warrant is
dependent upon the location of
the targeted cell phones or call
participants” (majority op at 19);
• “Li n k i ng ju r isd ict ion t o the
undetectable locations of cell
phones or callers and creating
d e p e n d e n c e on o u t s i d e l a w
en forcement agencies to
investigate and prosecute very
serious crimes is unreasonable”
and “would result in a logistical
scheme that leaves jurisdiction
in flux; creates multi-state wire
rooms w ith diffuse oversight
responsibility and in many cases
would eliminate eavesdropping as
an investigative tool” (id);
• “More importantly, centralized
oversight by a single issuing court
of competent jurisdiction over the

50a
Appendix A
eavesdropping investigation of
designated New York crimes is
critical to protect against abuses
in the invasion of an individual’s
privacy in the communications—
the paramount constitutional
concer n— and to ensu re that
any interception is necessary,
properly minimized and promptly
terminated in accordance with
constitutional safeguards” (id. at
19–20);
• “ T hat c r uc i a l over sight i s
impossible under defendant’s
proposed construct, which was
certainly not the legislature’s
intent in carefully designing this
State’s eavesdropping statutes”
(id. at 20).
The astonishing feature of the majority’s policy arguments
is that they are pure conjecture. These policy arguments
are based on nothing—not facts found below, not facts
in the record, not even facts found by the majority from
extra-record sources.
Here, instead, are some facts that render the majority’s
policy arguments untenable. First, both state and federal
courts are required to report to the Administrative Office
of the United States Courts all wiretaps sought, granted
and denied (see 18 USC § 2519). For the eleven years from

51a
Appendix A
2009-2019, state and federal courts together received
36,127 wiretap applications (Table Wire 7 — Wiretap, U.S.
Courts [Dec. 31, 2019], available at https://www.uscourts.
gov/statistics/table/wire-7/wiretap/2019/12/31). Thirtysix thousand, one-hundred eighteen applications were
granted: only nine were denied (id). Not a single state or
federal wiretap request was denied in 2017, 2018 or 2019
(id). So the idea that crucial, strict oversight of wiretaps
would be eroded if, for example, an officer from New York
had to go to a California court to seek authorization for
this very wiretap, is wholly fictional: there is no oversight
to erode, because 99.975% of wiretap applications are
granted.
Likewise, the idea law enforcement would be drastically
impaired if officers from one jurisdiction had to cooperate
with those in another—for example, if the officers here
had to seek a warrant from the federal district court
or a California state court instead of a New York state
court—has no support in fact. Federal law enforcement
agents frequently seek warrants in state courts. As an
example, by 2014, the DEA was sending more than 60% of
its wiretap applications to state courts, including a DEA
operation with California state prosecutors that “built a
wiretapping program that secretly intercepted millions of
calls and text messages based on the approval of a single
state-court judge” (Brad Heath, DEA Changes Wiretap
Procedure After Questionable Eavesdropping Cases, USA
Today [Jul. 7, 2016, 2:09 PM], https://www.usatoday.com/
story/news/2016/07/07/dea-changes-wiretap-procedureafter-questionable-eavesdropping-cases/86802508/).

52a
Appendix A
As Mr. Schneider points out, the People readily sought
and obtained warrants in California state court for his
arrest and a search of his home. Perhaps doing so was
not quite as rapid as it would have been if a New York
court could have issued the warrant for his arrest, but no
facts support the majority’s doomsday pronouncements,
which should be viewed with great skepticism, as the U.S.
Supreme Court has admonished:
“[W]e have found no empirical statistics on the
use of electronic devices (bugging) in the fight
against organized crime. Indeed, there are
even figures available in the wiretap category
which indicate to the contrary. . . . Some may
claim that without the use of such devices
crime detection in certain areas may suffer
some delays since eavesdropping is quicker,
easier, and more certain. However, techniques
and practices may well be developed that will
operate just as speedily and certainly and—
what is more important—without attending
illegality” (Berger, 388 U.S. at 60).
The proposition that the majority’s holding will better
ensure that “the invasion of an individual’s privacy—
the paramount constitutional concern” is “properly
minimized” runs headlong into a different set of facts
(majority op at 20). New York accounts for a little less
than 6% of the total United States population, yet in 2019,
New York state courts accounted for 28% of all wiretap
applications granted by all state courts (Wiretap Report
2019, U.S. Courts [Dec. 31, 2019], https://www.uscourts.
gov/statistics-reports/wiretap-report-2019). In contrast,

53a
Appendix A
the United States District Court for the Southern District
of New York, which granted the greatest number of
federal wiretap applications of any federal district court,
accounted for just 4% of the federal total (id). Adding in
the other New York federal district courts brings the
New York federal court total to just 5.9% of all federallyissued warrants nationwide (see Table Wire A1-Appendix
Tables Wiretap, U.S. Courts [Dec. 31, 2019], available
at https://www.uscourts.gov/statistics/table/wire-a1/
wiretap/2019/12/31). Thus, compared either to the rest
of the nation or the federal courts in New York, New
York’s prosecutors, aided by the New York state courts,
are wiretap-happy—hardly fulfilling the Constitution’s
paramount concern to protect the privacy of New
Yorkers touted by the majority. One should not expect the
majority’s grant of nationwide wiretapping authority to
New York courts to provide enhanced protection of the
right to privacy given the above data.
Yet one bit of tr uth in the major ity ’s policy
pronouncements is borne out by the facts: requiring
New York law enforcement officials who desire to wiretap
conversations not originating or terminating in New
York, and not from or to a New York resident, to obtain
authorization from either a federal court or the court of
some other appropriate state may occasionally “eliminate
eavesdropping as an investigative tool” (majority op at
19). In dissent in Olmstead, Justice Brandeis rejected the
worth of that complaint in words of unequalled elegance:
“Our Government is the potent, the omnipresent
teacher. For good or for ill, it teaches the whole

54a
Appendix A
people by its example. Crime is contagious.
If the Government becomes a lawbreaker, it
breeds contempt for law; it invites every man
to become a law unto himself; it invites anarchy.
To declare that, in the administration of the
criminal law, the end justifies the means —
to declare that the Government may commit
crimes in order to secure the conviction of
a private criminal — would bring terrible
retribution. Against that pernicious doctrine
this Court should resolutely set its face (277
U.S. at 468).”
Wiretapping is a crime under our Penal Law. Neither
the text nor the legislative history of CPL Article 700
suggests that the legislature authorized our courts to issue
warrants commanding the diversion of purely out-of-state
telephone calls between nonresidents so that they could be
listened to by New York law enforcement agents. Firmly
convinced thereof, I respectfully dissent.
Order affirmed.
Opinion by Chief Judge DiFiore. Judges Stein, Fahey
and Garcia concur. Judge Wilson dissents in an opinion,
in which Judge Rivera concurs.

55a
Appendix OF
B THE SUPREME
APPENDIX B — OPINION
COURT OF THE STATE OF NEW YORK
APPELLATE DIVISION: SECOND JUDICIAL
DEPARTMENT, DATED OCTOBER 16, 2019
SUPREME COURT OF THE STATE OF NEW YORK
APPELLATE DIVISION: SECOND JUDICIAL
DEPARTMENT
October 16, 2019, Decided
2018-09853
THE PEOPLE, ETC.,
Respondent,
v
JOSEPH SCHNEIDER,
Appellant.
Ind. No. 4087/16
DECISION & ORDER
Appeal by the defendant from a judgment of the
Supreme Court, Kings County (Danny K. Chun, J.),
rendered May 30, 2018, convicting him of enterprise
corruption, promoting gambling in the first degree,
possession of gambling records in the first degree, and
conspiracy in the fifth degree, upon his plea of guilty, and

56a
Appendix B
imposing sentence. The appeal brings up for review the
denial, without a hearing, of that branch of the defendant’s
omnibus motion which was to suppress evidence obtained
pursuant to eavesdropping warrants.
ORDERED that the judgment is affirmed, and the
matter is remitted to the Supreme Court, Kings County,
for further proceedings pursuant to CPL 460.50(5).
The defendant pleaded guilty to numerous charges in
connection with his involvement in an Internet gambling
enterprise, which involved operations in Kings County,
New York, and other locations throughout the nation.
Much of the evidence against the defendant was derived
from his cellular telephone calls and electronic messages
that law enforcement officers intercepted pursuant to
eavesdropping warrants. The Supreme Court denied,
without a hearing, that branch of the defendant’s omnibus
motion which was to suppress the evidence obtained
pursuant to those warrants. The Supreme Court issued
a stay of execution of the defendant’s judgment pending
this Court’s hearing and determination of this appeal.
We reject the defendant’s contention that the
Supreme Court, Kings County, lacked jurisdiction to
issue eavesdropping warrants against him to intercept
cellular telephone calls and electronic messages which
were made and received outside of New York State.
“[A]ny justice of the supreme court of the judicial district
in which the eavesdropping warrant is to be executed”
(CPL 700.05[4]) “may issue an eavesdropping warrant . . .
upon ex parte application of an applicant who is authorized

57a
Appendix B
by law to investigate, prosecute or participate in the
prosecution of the particular designated offense which is
the subject of the application” (CPL 700.10[1]). Although
the word “execute” is not defined in CPL article 700,
the plain meaning of the word “execute” and the use of
that word in relevant sections of the Criminal Procedure
Law reveal that an eavesdropping warrant is “executed”
when a communication is intercepted by law enforcement
officers, that is, when the communication is “intentionally
overheard or recorded” by law enforcement officers (CPL
700.05[3][a]; see CPL 700.35[1]). Here, the eavesdropping
warrants were executed in Kings County, New York,
where the communications were intercepted by the
New York City Police Department (see CPL 700.05[4];
Stegemann v Rensselaer County Sheriff’s Off., 155 AD3d
1455, 1459, 67 N.Y.S.3d 304; People v Perez, 18 Misc 3d
582, 588, 848 N.Y.S.2d 525 [Sup Ct, Bronx County]; People
v Delacruz, 156 Misc 2d 284, 287-288, 593 N.Y.S.2d 167
[Sup Ct, Bronx County]; United States v Rodriguez, 968
F2d 130, 136 [2d Cir]). Therefore, under the applicable
provisions of the Criminal Procedure Law, a Justice of the
Supreme Court, Kings County, had jurisdiction to issue
the eavesdropping warrants.
Moreover, we reject the defendant’s argument that the
eavesdropping warrants, which were authorized for the
purpose of investigating crimes that were occurring in
New York, constituted an unconstitutional extraterritorial
application of New York State law (see generally People v
McLaughlin, 80 NY2d 466, 470-471, 606 N.E.2d 1357, 591
N.Y.S.2d 966). Furthermore, contrary to the defendant’s
contention, the affidavit of a detective submitted in support

58a
Appendix B
of the warrants demonstrated that normal investigative
procedures either had been tried and failed, or reasonably
appeared unlikely to succeed if tried, to obtain the
evidence sought (see CPL 700.20[2][d]; 700.15[4]; People
v Rabb, 16 NY3d 145, 153, 945 N.E.2d 447, 920 N.Y.S.2d
254; People v Giddens, 161 AD3d 1191, 1194, 78 N.Y.S.3d
355; People v Ndaula, 158 AD3d 650, 67 N.Y.S.3d 854).
The defendant’s contentions with respect to the
sufficiency of the evidence before the grand jury were
forfeited by his plea of guilty, and are not reviewable
on appeal (see People v Guerrero, 28 NY3d 110, 116, 42
N.Y.S.3d 80, 65 N.E.3d 51; People v Higgs, 146 AD3d 981,
44 N.Y.S.3d 914; People v McCrory, 114 AD3d 810, 980
N.Y.S.2d 164).
M A STRO, J.P., HINDS -RA DIX, M A LTESE and
BRATHWAITE NELSON, JJ., concur.
ENTER:

/s/				
Aprilanne Agostino
Clerk of the Court

59a
AppendixOF
C THE SUPREME
APPENDIX C — OPINION
COURT OF THE STATE OF NEW YORK
COUNTY OF KINGS: CRIMINAL TERM
PART 19, DATED SEPTEMBER 15, 2017
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF KINGS: CRIMINAL TERM PART 19
THE PEOPLE OF THE STATE OF NEW YORK,
-againstJOSEPH SCHNEIDER,
Defendant.
DANNY K. CHUN, J.
MOTION TO CONTROVERT/
OMNIBUS DECISION AND ORDER
IND. NO. 4087/2016
Upon considering the defendant’s Motion to Controvert
the Eavesdropping Warrant and Omnibus Motion, dated
March 8, 2017, the People’s response, dated June 28, 2017,
and the defendant’s reply, dated July 19, 2017, the following
constitutes this court’s decision:
1. The defendant’s motion to controvert and suppress
the eavesdropping warrant:

60a
Appendix C
Jurisdiction
The defendant argues that all evidence derived
from the eavesdropping warrant should be suppressed
because (1) principles of state sovereignty and due process
prohibit the Kings County District Attorney’s Office from
eavesdropping on the private e1ectronic communications
of the defendant, a resident of California, in violation
of California’s privacy statute; (2) California Law does
not authorize eavesdropping for gambling-related
offenses and prohibits eavesdropping by out-of-state law
enforcement officials; and (3) New York Law does not allow
its prosecutors to eavesdrop on out-of-state residents in
violation of that person’s state privacy rights.
In response, the People argue that the defendant’s
motion should be summarily denied because the cellular
telephone conversations and electronic communications by
the defendant were first overheard and recorded in Kings
County and the warrants were executed in Kings County
within the jurisdiction of a Kings County Supreme Court
pursuant to CPL § 700.
This court denies the defendant’s motion for the
following reasons. First, the eavesdropping warrant
was to be executed in Kings County, and as such, Kings
County District Attorney’s Office was allowed to apply
for the warrant against the defendant and this court had
jurisdiction to issue the warrant.
Under CPL § 700.10(1), “a justice may issue an
eavesdropping warrant . . . upon ex parte application

61a
Appendix C
of an applicant who is authorized by law to investigate,
prosecute or participate in the prosecution of the
particular designated offense which is the subject of the
application.” CPL § 700.75(4) defines ‘justice,” in part, as
“any justice of the supreme court of the judicial district
in which the eavesdropping warrant is to be executed.” In
addition, Promoting Gambling in the Second Degree (PL
§ 225.05) and Promoting Gambling in the First Degree
(PL § 225.10) are both “designated offenses” pursuant to
CPL § 700.05(8)(c).
Here, according to the affidavits submitted for the
eavesdropping warrants, there was evidence derived
during the investigation that the defendant with his
accomplices, co-conspirators and agents was involved in
crimes related to promoting gambling in Kings County
and elsewhere. In addition, the affidavit states that all the
calls were to be monitored and secured in a plant located in
Kings County. Furthermore, this court is a Justice of the
Supreme Court of Kings County and therefore, authorized
to issue eavesdropping warrants that are to be executed
in Kings County.
The issue here is whether “execution of the warrant”
occurred in Kings County, where the calls were monitored,
or in California, where the defendant made the phone calls.
CPL § 700 does not define the term “executed” and no
higher court in this state has decided this issue. According
to the Oxford English Dictionary, the definition of the term
“execute” in this context is to carry out a judicial order, as
in executing a search warrant. In addition, CPL § 700.35(1)
states that “[a]n eavesdropping or video surveillance

62a
Appendix C
warrant must be executed according to its terms by a
law enforcement officer . . . [emphasis added]” Therefore,
based on the plain meaning of the term and its use in
CPL § 700.35, an eavesdropping warrant is “executed” by
law enforcement officers, and not the participants to the
communication. Furthermore, CPL § 700.30(7) provides
that an eavesdropping warrant must contain “[a] provision
that the authorization to intercept . . . shall be executed
as soon as practicable . . .” Therefore, an eavesdropping
warrant is executed when communication is intercepted.
CPL § 700.05(3)(a) defines “intercepted communication”
as “a telephonic or telegraphic communication which was
intentionally overheard or recorded by a person other
than the sender or receiver thereof, without the consent
of the sender or receiver, by means of any instrument,
device or equipment.”
Therefore, an eavesdropping warrant is executed
when a law enforcement officer intentionally overhears
a telephonic or telegraphic communication. In this case,
the eavesdropping warrants were to be executed in
Kings County. The plant was located in Kings County,
the communications were listed to and intercepted by law
enforcement located only in Kings County. As such, this
court was authorized to issue the warrant applied for by
the Kings County District Attorney’s Office.
This conclusion is consistent with other New York
State Supreme Court cases. In People v. DeLaCruz,
the court concluded that “to execute an eavesdropping
warrant intercepting a telephone conversation is to
order the intentional overhearing or recording of the

63a
Appendix C
human voice as it is transferred through the use of wire,
cable, or other like communication.” People v. DeLaCruz,
156 Misc.2d 284, 287-288 (1992). Therefore, that court
concluded that “[t]he jurisdiction where the conversation
is overheard or recorded constitutes the jurisdiction of
the issuing justice.” Id. at 288. Similarly, in People v.
Perez, the court held that “an eavesdropping warrant is
executed when and where telephonic communication are
intercepted or electronic communications are acquired.”
People v. Perez, 18 Misc.3d 582, 530 (2007).
This conclusion is also in line with federal cases. In
United States v. Rodriguez, the Second Circuit held that
“a communication is intercepted not only where the tapped
telephone is located, but also where the contents of the
redirected communication are first to be heard.” United
States v. Rodriguez, 968 F.2d 130, 136 (1992). In United
States v. Kazarian, the United States District Court, S.D.
New York followed the holding of Rodriguez and concluded
that as “the intercepted conversations were to be, and
were, first listened to in this District, judges sitting in
this District were authorized to issue the wiretap orders
at issue.” United States v. Kazarian, 2012 WL 1810214
(2012).
The defendant argues that this conclusion does not
make sense as it would mean law enforcement could reroute phone calls being made anywhere in the country to
Kings County and thereby have nation-wide jurisdiction.
However, the key is that the crimes and the conspiracy
to commit the crimes were being committed in Kings
County either directly by the defendant or under an

64a
Appendix C
acting in concert theory by the defendant’s accomplices,
co-conspirators and agents. As such, there was sufficient
nexus between the eavesdropping warrants and Kings
County. Therefore, the Kings County District Attorney’s
Office had jurisdiction to investigate and prosecute the
crimes underlying this warrant. This court’s holding
does not stand for the proposition that this court has
jurisdiction to issue eavesdropping warrants under any
circumstances as long as the warrant is executed in Kings
County. The crimes that are being investigated must also
have sufficient nexus with Kings County. In this age of
cellular phones and electronic transmissions, it defies logic
that law enforcement could only listen to phone calls made
and received within the borders of the county where the
eavesdropping warrant was issued. Furthermore, the
defendants were calling people in New York state from
California and as such, a clear connection is established
with New York state and Kings County.
Accordingly, this court had jurisdiction to issue the
eavesdropping warrants on the defendant’s cellular phone
located in California.
Second, the fact that eavesdropping is not allowed
for gambling related crimes in California cannot be a
defense in New York State where such eavesdropping is
allowed by law. Pursuant to CPL § 700.05(8)(c), Promoting
Gambling in the Second Degree (PL § 225.05), Promoting
Gambling in the First Degree (PL § 225.10), Possession
of Gambling Records in the Second Degree (§ 225.15)
and Possession of Gambling Records in the First Degree
(PL § 225.20) are all crimes that can be the subject of an

65a
Appendix C
eavesdropping application in New York State. As stated
above, the defendant with his accomplices, co-conspirators
and agents was committing gambling related crimes
in Kings County. Therefore, Kings County District
Attorney’s Office was clearly authorized to apply for an
eavesdropping warrant on the defendant’s phone and this
court had jurisdiction to issue the warrant. The defendant
would have a defense if the prosecution was in the State of
California under California laws. The defendant also may
have a defense if the warrant was executed in the State of
California. However, that clearly is not the case and the
defendant can be prosecuted under New York State laws
in New York.
Necessity
The defendant’s claim that the application did not
satisfy the “necessity” requirement pursuant to CPL
§ 700.20 is without merit. The People are not required
to show that every other method of investigation had
been exhausted. People v. Sica, 163 A.D.2d 541, 542
(2nd Dep’t 1990). Contrary to the defendant’s contention,
this court does not find that boilerplate allegations
of necessity were stated in the affidavit in support of
the eavesdropping warrants. In review of Detective
John Mullen and Assistant District Attorney Nicholas
J. Batsidis’ affidavits, this court finds that the People
satisfied the necessity requirement
2. The defendant’s motion to inspect the Grand Jury
minutes pursuant to CPL § 210.30 is granted to the extent
of the Court examining in camera. The defendant’s

66a
Appendix C
further motion to dismiss or reduce the indictment has
been decided by this court by a decision dated October 5,
2016.
3. The defendant’s motion to suppress all statements
made by the defendant is denied. However, a Huntley
hearing is granted to determine whether any of the
defendant’s rights were violated when he made the
statements.
4. The defendant’s motion to suppress evidence of
identification, or in the alternative for a Wade hearing is
denied. The People state that there was no identification
procedure as contemplated by CPL § 710.30.
5. The People are directed to turn over all exculpatory
material pursuant to Brady v. Maryland, 373 U.S. 83
(1963), Giglio v. United States, 405 U.S. 150 (1972), and
the Federal and State Constitutions.
6. The defendant’s motion for a Bill of Particulars,
pursuant to CPL § 200.95, is granted to the extent of the
People’s response and the Voluntary Disclosure Form
(VDF). The People are directed to continue to provide
discovery to the defendant as it becomes available.
7. Pursuant to CPL § 240.20, the People are directed
to forthwith disclose to the defendant and make available
for inspection, photographing, copying or testing, the
following property, if not already done:
(A) Any written, recorded or oral statement
of the defendant made, other than in the

67a
Appendix C
course of the criminal transaction herein
charged, to a law enforcement public
servant or to a person acting under his or
her direction or in cooperation with him
or her;
(B) Any transcript of the defendant’s testimony
before the Grand Jury which voted the
indictment herein;
(C) Any w ritten report or document, or
portion thereof, concerning a physical
or mental examination, or scientific test
or experiment, relating to the criminal
action or proceeding herein which was
made by, at the request of or pursuant to
the direction of a law enforcement public
servant;
(D) Any w ritten report or document, or
portion thereof, concerning a physical or
mental examination, or scientific test or
experiment, relating to the criminal action
or proceeding herein which was made by
a person whom the People intend to call
as a witness at trial, or which the People
intend to introduce at trial;
(E) Any photograph or drawing relating to
the criminal action herein which was made
or completed by a law enforcement public
servant whom the People intend to call

68a
Appendix C
as a witness at trial, or which the People
intend to introduce at trial;
(F) Any photograph or drawing relating to the
criminal action herein which was made by
a person whom the People intend to call
as a witness at trial, or which the People
intend to introduce at trial;
(G) Any photograph, photocopy or other
reproduction made by or at the direction of
a police officer, peace officer or prosecutor
of any property prior to its release pursuant
to Penal Law § 450.10, irrespective of
whether the People intend to introduce the
property, photograph, photocopy or other
reproduction at trial;
(H) Any other property obtained from the
defendant;
(I) Any audio or video tapes or other electronic
recordings which the People intend to
introduce at trial, irrespective of whether
such records in was made during the
course of the criminal transaction herein.
8. A Sandoval/Molineux/Ventimiglia hearing is
granted, but referred to the trial court for its decision
prior to trial.

69a
Appendix C
9. Pursuant to CPL § 255.20, unless good cause is
shown, the defendant’s request to make further motions
is denied.
10. The People’s motion for reciprocal discovery of
defendants’ alibi evidence is granted. The defendant
is directed provide notice of alibi as specified in CPL
§ 250.20. In addition, the People’s motion for reciprocal
discovery is granted as to the material specified in CPL
§ 240.30. Lastly, pursuant to CPL § 250.10(2), unless good
cause is shown, the defendant should be precluded from
presenting psychiatric evidence.
The foregoing constitutes the decision and order of
the court.
Dated: Brooklyn, New York
September 15, 2017
/s/				
DANNY K. CHUN, J.S.C.

